<html>
<title> - NATURALIZATION DELAYS: CAUSES, CONSEQUENCES, AND SOLUTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        NATURALIZATION DELAYS: 
                  CAUSES, CONSEQUENCES, AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2008

                               __________

                           Serial No. 110-64

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
40-282                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            JANUARY 17, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Mr. Emilio T. Gonzalez, Director, United States Immigration and 
  Citizenship Services, accompanied by Jonathan Scharfen, Deputy 
  Director for Domestic Operations, and Michael Aytes, Associate 
  Director for Domestic Operations
  Oral Testimony.................................................     8
  Prepared Statement.............................................    11
Mr. Arturo Vargas, Executive Director, National Association of 
  Latino Elected and Appointed Officials Education Fund
  Oral Testimony.................................................    40
  Prepared Statement.............................................    43
Mr. Fred Tsao, Policy Director, Illinois Coalition for Immigrant 
  and Refugee Rights
  Oral Testimony.................................................    59
  Prepared Statement.............................................    61
Ms. Rosemary Jenks, Government Relations Director, Numbers USA
  Oral Testimony.................................................    65
  Prepared Statement.............................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     6
Prepared Statement of the Honorable Maxine Waters, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................     6
Prepared Statement of the Honorable Adam B. Schiff, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................     7

                                APPENDIX

Material Submitted for the Hearing Record........................   126


                        NATURALIZATION DELAYS: 
                  CAUSES, CONSEQUENCES, AND SOLUTIONS

                              ----------                              


                       THURSDAY, JANUARY 17, 2008

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Berman, 
Jackson Lee, Ellison, Conyers (ex officio), King, Goodlatte, 
Gohmert, and Smith.
    Staff Present: Blake Chisam, Majority Counsel; Andres 
Jimenez, Staff Assistant; and George Fishman, Minority Counsel.
    Ms. Lofgren. The hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    Almost 1 year ago, this Subcommittee held its first hearing 
of the year to discuss the proposed immigration fee increase. 
Just like our hearing today, U.S. Citizenship and Immigration 
Services Director Gonzalez was our witness. At that time we 
discussed, what was described by the Director at the time, the 
need for an unprecedented 88 percent increase in immigration 
fees, including a 59 percent increase in the citizenship 
application fee. We were told at that time that this fee 
increase would solve several problems at USCIS, specifically a 
20 percent increase in efficiency in adjudication of 
immigration and naturalization applications.
    As you know, I was not pleased last year about the 
tremendous fee increase, especially for families attempting to 
naturalize. I was particularly concerned that the justification 
for such a large fee increase was based in part upon a poorly 
devised technology transformation plan. My staff and I spent 
the rest of the year working with you, Director Gonzalez, to 
try to address these concerns including helping to arrange 
volunteer assistance from Stanford University Computer Science 
Department and the Stanford School of Business.
    Today I have not yet seen a satisfactory transformation 
plan, and instead USCIS is projecting a naturalization 
application increase in adjudication time of up to 18 months, 
up from what was usually less than 6 months just before the fee 
increase was implemented in August. If the fee was supposed to 
help the agency, I cannot understand why we are in a worse 
place today.
    I have heard the explanation that the sharp increase in 
naturalization applications was unforeseen, but I can't 
understand how it was not foreseen. Just last week I asked the 
Congressional Research Service to analyze and report on the 
connection between fee increases and surges in naturalization 
applications.
    Their preliminary report suggests not only that fee 
increases may have led to a spike in naturalization 
applications, but that several other factors in the past have 
caused surges, all factors that could have and should have been 
foreseen last year. I just can not understand how an agency 
whose mission it is to adjudicate applications have not done 
these types of analyses to prepare for increases in 
naturalization applications far in advance of implementing a 
fee increase, especially since it took CRS only a few days to 
do so.
    If an analysis of this type was done, it is even more 
inexplicable why a work plan was not put in place sooner to 
prevent this tremendous new backlog instead of waiting 4 months 
after the fee increase to finalize the plan.
    I have also heard the explanation that there was no way for 
the agency to have foreseen the high level of increase in 
naturalization applications. Unfortunately, it appears the work 
plan for any size increase, small or large, was not even 
finalized until long after the implementation of the fee 
increase.
    I have asked repeatedly how it is that this Congress can 
help to provide the resources you need, Director Gonzalez, to 
manage this naturalization increase. In response, I immediately 
introduced a bill that garnered bipartisan support to assist 
you in hiring annuitants. I only wish the agency had sought 
that authority when you proposed your fee increase, again in 
what should have been a foreseen surge in naturalization 
applications.
    I understand you have space and capacity issues. I wish the 
agency had raised this issue with us long ago. I am more than 
willing to do whatever I can to help with this and whatever 
other resource you may need to address this new backlog.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

    Welcome back Director Gonzalez. Almost one year ago, this 
subcommittee held its first hearing of the year to discuss the proposed 
immigration fee increase. Just like our hearing today, U.S. Citizenship 
and Immigration Services (USCIS) Director Gonzalez was our witness. At 
that time, we discussed what was described by the Director at that time 
the need for an unprecedented 88% increase in immigration fees, 
including a 59% increase in the citizenship application fee. We were 
told at that time that this fee increase would solve several problems 
at the USCIS, specifically a 20% increase in efficiency in adjudication 
of immigration and naturalization applications.
    As you know, I was not pleased last year about the tremendous fee 
increase, especially for families attempting to naturalize. I was 
particularly concerned that the justification for such a large fee 
increase was based, in part, upon a poorly devised technology 
transformation plan. My staff and I spent the rest of the year working 
with you to try to address these concerns, including helping to arrange 
volunteer assistance from the Stanford University computer science 
department and the School of Business.
    Today, I have not yet seen a satisfactory transformation plan and 
instead, USCIS is projecting a naturalization application increase in 
adjudication time to up to 18 months, up from what was usually less 
than six months just before the fee increase was implemented in August.
    If the fee increase was supposed to help you Director Gonzalez, I 
cannot understand why we are in a worse place today. I have heard the 
explanation that the sharp increase in naturalization applications was 
unforeseen, but I cannot understand how it was not foreseen.
    Just last week, I asked the Congressional Research Service (CRS) to 
analyze and report on the connection between fee increases and surges 
in naturalization applications. Their preliminary report suggests not 
only that fee increases may have led to a spike in naturalization 
applications, but that several other factors in the past have caused 
surges, all factors that could have and should have been foreseen last 
year.
    I simply cannot understand how an agency whose mission it is to 
adjudicate applications had not done these types of analyses to prepare 
for increases in naturalization applications far in advance of 
implementing a fee increase, especially since it took CRS only a few 
days to do so. If an analysis of this type was done, it is even more 
inexplicable why a work plan was not put in place sooner to prevent 
this tremendous new backlog instead waiting four months after the fee 
increase to finalize the plan.
    I have also heard the explanation that there was no way for the 
agency to have foreseen the high level of increase in naturalization 
applications. Unfortunately, it appears the work plan for any size 
increase, small or large, was not even finalized until long after the 
implementation of the fee increase.
    I have repeatedly asked how it is that this Congress can help to 
provide the resources you need to manage this naturalization increase. 
In response, I immediately introduced a bill that garnered bipartisan 
support to assist you in hiring annuitants. I only wish that the agency 
had sought that authority when you proposed your fee increase given 
what should have been a foreseen surge in naturalization applications. 
I understand you have space and capacity issues. While I wish the 
agency had raised this issue with us long ago, I more than willing to 
do whatever I can to help with this and any other resource you may need 
to address this new backlog.

    Ms. Lofgren. At this point, I would recognize our 
distinguished Ranking Member, Congressman Steve King for his 
opening statement.
    Mr. King. Thank you, Madam Chair. I have often spoken at 
naturalization ceremonies to welcome new citizens as full-
fledged members of the American experiment in democracy and our 
constitutional Republic. And I do that to stress the importance 
of learning English and assimilating into American life and 
culture. And I point out that I joined the Director at a 
naturalization ceremony at the Old Executive Building on a 
Friday before the Fourth of July of 2007. It was a memorable 
day. We should most definitely encourage assimilation and 
naturalization.
    I was troubled to learn of one of this Subcommittee's 
hearings on assimilation last year that the number of 
naturalizations has actually decreased over the last several 
decades. In the years before 1970, 82 percent of immigrants 
were naturalized; however, that number fell each subsequent 
decade to the point at which from 1990 to the year 2007, only 
13 percent chose to naturalize.
    U.S. Citizenship and Immigration Services has seen an 
enormous increase in the number of immigration benefit 
applications over the past several months. Many of those 
applications are for naturalization. In fact, it is my 
understanding that 1,059,793 naturalization applications are 
currently pending. Once an application is pending for 6 months 
it is considered backlogged, so many of those pending 
applications will soon be considered backlogged.
    The surge in applications can be attributed to several 
factors, including the recent immigration benefit fee 
increases, the upcoming elections where there have been some 
hard pushes by a lot of organizations to increase the 
naturalization, and the acceptance of an enormous number of 
employment-based adjustment of status applications. USCIS has 
the responsibility to process immigration benefits 
applications, including naturalization applications, in an 
efficient manner.
    But let me strike a cautionary tone. In a rush to 
naturalize, we at all costs cannot witness a repeat of the 
Citizenship USA debacle of a decade ago. What was Citizenship 
USA? Let me quote from a statement that Judiciary Ranking 
Member Lamar Smith made in 1997 at an investigative hearing and 
I quote. ``Citizenship is the greatest honor this country can 
bestow. No award, medal, or commendation surpasses the simple 
dignity conferred when a former alien gains the privilege to 
say 'I am a citizen of the United States.' this privilege is 
sought by millions of people around the world. It encompasses 
the right to travel freely, to hold almost any public office, 
and to petition for the immigration of relatives. Most 
importantly, it empowers a new citizen with the right and 
responsibility to vote and actually shape the future of our 
Nation. Among the many difficult challenges faced by the 
Immigration Service, none is more important than making sure 
that this honor is bestowed only on those who deserve it.''
    And I continue to quote from Lamar Smith's statement. 
``Citizenship USA was the Clinton administration's initiative 
to promote naturalization to process new applications. We are 
here today because, despite assurances to the contrary, more 
than 180,000 aliens were naturalized without having received 
complete background checks, resulting in the naturalization of 
substantial numbers of criminal aliens. As stated in 
yesterday's Washington Post `--this is a decade ago,' 
yesterday's Washington Post, and I quote from it--`The failings 
of the Citizenship USA have triggered one of the most damning 
indictments ever leveled at the Immigration Service that it has 
cheapened U.S. citizenship.' ''
    And continuing with Lamar Smith's quote, ``The failures of 
Citizenship USA are an insult to the hardworking and law-
abiding immigrants who truly earn this honor. It sullies them 
and cheapens their achievement. These failures also legitimize 
the residency of criminals in our community and endanger public 
safety. There is nothing wrong with encouraging naturalization 
or urging newly naturalized citizens to vote. There is 
everything wrong with overlooking criminal background checks, 
naturalizing criminals, endangering public safety and then 
concealing the extent of the problem.''
    In the district that I represent, we have individuals who 
were naturalized in the hurry-up process over a decade ago, 
called Citizenship USA. They have said to Representatives, 
elected Representatives, that they understood that part of 
their obligation was to go to the polls and vote for Bill 
Clinton. That motive is brought into question by those examples 
that I know of in the area that I represent. And I just bring 
that up not as an indictment of past history, but we need to 
learn from past history. And of all the things that we do here 
and we discuss, this is a surprise event in a way that numbers 
are greater than anticipated, USCIS needs to ramp up to deal 
with this. But the applications need to be verified and their 
legitimacy and their background checks need to be done 
thoroughly so that citizenship is not devalued and so that the 
election that is upcoming in 2008 doesn't have a negative pall 
cast over it, that the integrity of every vote in America is 
measured equally. And that is my interest in this and, I 
believe, also the interest of Mr. Gallegly who asked me to 
mention his name with regard to these statements.
    And I look forward to the testimony, and I yield back the 
balance of my time.
    Ms. Lofgren. Thank you, Mr. King.
    I would now turn to the Chairman of the full Judiciary 
Committee, the Honorable John Conyers, for any opening 
statement he may wish to make.
    Mr. Conyers. Thank you, Chairwoman Lofgren. This is a very 
important hearing, and because you have covered literally the 
same points that I made and that I would have made in my 
opening statement, I just want to put mine in the record and 
make this observation. I go to a lot of swearing-in ceremonies 
in Detroit, and the excitement and the thrill of family seeing 
people sworn in to citizenship is moving to me. I go there for 
that purpose. And then, right outside the hearing room where 
the naturalization process is being completed, are registration 
places. You can register immediately after you are sworn in. 
And that is so exciting and so important.
    And so I come here with the spirit that informs this 
Committee, is that this is really an important hearing, and I 
am so glad that you called it.
    Now, three things. One, it is great to be bringing back the 
retirees, but I have already been told we need about 3,000 
more, and my friend, Dr. Gonzalez, who is leading this off--and 
we are good friends, we are going to find out how good friends 
before the year is out because we have all got to perform 
together. He was in Detroit when we dedicated our new building, 
or new Immigration building, now, of course, a larger part of 
Homeland Security, and this isn't the most difficult Federal 
task we have ever faced. I mean, look, we need a lot more 
people and we need them fast.
    Secondly, we need the fine counsel at the Department of 
Homeland Security to waive the gift rule. I mean, come on, how 
come one local government can't donate things to the Federal 
Government? We don't need to go to the Supreme Court to figure 
that one out.
    And then, finally, there is the FBI name check issue in 
which here we have got the Federal Bureau of Investigation 
going over name by name, by hand, in all their dozens of 
offices, trying to figure out who is who, and how do we get to 
the name checks, and who is on the terrorist watch list. And it 
becomes a big cumbersome operation when all we have to do is 
recommend to our friend, Robert Mueller at the FBI, digitize 
your files, my man. That is all you have to do.
    Now, the fact that it hadn't been done before won't help us 
now. But we have to expedite this process. We can't have people 
waiting who paid their dues, anxious to go, ready to become 
citizens, and we are saying, well, we are looking to see--we 
have 14 guys with the same last name all over the U.S. and it 
will take a couple months to figure this out, if this is the 
right one or the wrong one.
    Let's get organized. And we don't even have to have a 
hearing with the head of the FBI to have this kind of meeting. 
The Chairwoman can call him in and we can all meet with him and 
say, look, speed it up. Do the best you can and let's get this 
over with. So I thank you so much.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    The failure of the Department of Homeland Security to plan for a 
surge of naturalization applications has placed us in a situation in 
which over a million deserving people will have their dream of American 
citizenship put off.
    As a Committee, we have grappled with the immigration issue over 
the last year. We have learned that there are a number of areas of 
agreement. For instance, there is consensus that citizenship should be 
encouraged and eased for those who have played by the rules, and that 
immigration policy should encourage assimilation and participation in 
American culture.
    There is no more important participation than the vote. All of us 
who are honored to attend naturalization ceremonies are struck by how 
seriously new Americans take that responsibility, and how excited they 
are to be able to cast their ballot.
    When the naturalization fees were raised last summer, the only 
reasonable expectation was that there would be a surge in citizenship 
applications. That has happened in every prior fee increase. And that's 
exactly what happened this time. But there was little planning to deal 
with the increase in applications, and where there was planning, there 
was no urgency to implement the plan until long after the applications 
were submitted and the backlog was created.
    Moreover, we were told by the Department of Homeland Security that 
if we went along with their 70% fee increase last year, we would see 
immigration applications adjudicated 20% faster than they were early in 
2007. At the time, naturalization applications were being adjudicated 
within six months on average.
    Now we have almost a million-and-a-half people who trusted that 
they would be able to become United States citizens and participate in 
the life of this Nation within six months, only to find out that they 
will be delayed by up to eighteen months, many say even longer.
    Many of these people applied for citizenship because they wanted to 
become full contributors and participants in the United States of 
America. But as a result of these delays, they will have to wait and 
miss the most important action a citizen can take in a democracy--a 
vote in this year's Fall elections.
    Transparent and efficient immigration procedures are a civil rights 
imperative, especially when other core constitutional rights are 
implicated. While we work on the one hand to make sure that protections 
are in place to prevent voter suppression, we have to also be on guard 
against a back-door disenfranchisement of new citizens.
    This year, we will be paying close attention to activities that 
impede the ability of marginalized communities to go to the polls. In 
past elections, we've seen people excluded because of photo-
identification laws and even just because there were too few voting 
machines in minority precincts.
    We expect that the Department of Homeland Security will spare no 
effort to close this naturalization backlog and end this 
disenfranchisement.

    Ms. Lofgren. Thank you, Mr. Chairman.
    If the Ranking Member of the full Committee, Mr. Smith, is 
able to attend, he will also be invited to make an opening 
statement.
    In the interests of time and moving to our witnesses, I 
would ask unanimous consent that the statements of all other 
Members be submitted in the record within 5 legislative days 
and, without objection, all opening statements will be placed 
in the record. The Chair is authorized to declare a recess of 
the hearing.
    [The prepared statement of Ms. Waters follows:]

Prepared Statement of the Honorable Maxine Waters, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

    Madam Chair, thank you for organizing today's hearing on 
Naturalization Delays: the Causes, Consequences and Solutions. The 
growing delays in processing and completing naturalization applications 
has become a critical issue that, unfortunately, appears to be getting 
worse--not better. In my area, the Los Angeles office of U. S. 
Citizenship and Immigration Services received over 185,000 applications 
for naturalization in the first 9 months of 2007. I've been told that 
by the end of 2007, the office in Los Angeles had approximately 145,000 
applications pending, the largest number in the country. A 22% 
completion rate is not sufficient to me.
    Unbelievably, in a period of unparalleled technological 
advancements, the Department of Homeland Security's agency responsible 
for approving citizenship requests, is actually getting slower and 
slower at processing applications. Granted, there has been an increase 
in the number of applications, but still, with the technology available 
in so many other areas, I do NOT understand why the average processing 
time is taking three times longer today than previously--what used to 
take less than 6 months, now takes up to, or, exceeds 18 months.
    Just a few days ago, the New York Times published a very eloquent 
editorial, called ``Refugees in the Cold.'' It highlighted the plight 
of refugees--from places like Iraq, Vietnam, and Somalia--who have lost 
limbs or their eyesight during violent surges in their old homelands. 
They have managed to build productive lives here in the United States, 
but because of DHS' failure to see the surge of citizenship 
applications that would be coming, too many of these refugees are now 
stuck in what the New York Times calls, and I quote, ``a bureaucratic 
trap'' by a ``notoriously hapless citizenship agency'' that has failed 
to complete the necessary background checks in time to meet the 
``palsied bureaucracy's inflexible deadlines.''
    No one at Homeland Security planned properly or sufficiently for 
the surge in applications that was expected to occur when the new fee 
increases were announced. Once again, DHS failed to prepare for the 
predictable. While we continue to clean up from the results of poor 
preparation in the Gulf Coast, we now have to fix the staggering 
backlog of naturalization applications.
    I'd like to thank our witnesses for joining us today and look 
forward to your testimony as we consider the most timely and effective 
way to fix the dreadful backlog of pending applications for 
naturalization.

    [The prepared statement of Mr. Schiff follows:]

Prepared Statement of the Honorable Adam B. Schiff, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

    I thank the Chairwoman for convening this hearing to discuss the 
naturalization backlog. These delays have had a significant impact on 
our communities, and I am hopeful that the testimony before this 
Subcommittee will help us find solutions to quickly resolve the 
processing delays.
    In mid-2007, U.S. Citizenship and Immigration Services raised the 
processing fees for naturalization applications from $400 to $675--
nearly a 70 percent increase. The fee increases placed a significant 
burden on many families that wanted to take steps to adjust their 
status and become American citizens. At that time, many Members of 
Congress raised concerns that the fee increase would hinder the 
naturalization of legal immigrants and their integration into American 
society.
    It is not surprising that in the months leading up to the fee 
increase, the number of naturalization applications filed with USCIS 
grew tremendously, and consequently, so too did the application backlog 
and the waiting times for applicants. Between the end of Fiscal Year 
2006 and 2007, the number of naturalization applications increased 96 
percent, from 473,467 to 926,864.
    This dramatic increase in pending naturalization applications is 
incredible, but it also is predictable and could have been avoided. The 
USCIS has announced several steps that it is now taking to resolve the 
backlog. In his testimony before the Subcommittee today, USCIS Director 
Emilio Gonzalez notes that the agency has begun hiring 1,500 new 
employees. They have also identified 700 retired employees to re-hire.
    Given the estimate of 16 to 18 month processing times for 
applications filed after June 2007, it is laudable that the USCIS has 
taken steps to reduce the naturalization backlog. But these steps are 
too little and too late. It still isn't clear to me why the agency 
didn't take steps sooner to address the potential backlog. Even with 
the new hires, there will be months between when employees are 
recruited, hired, fully trained and are able to make a dent in the 
application backlog.
    Further, the delays are only exacerbated by the lengthy processing 
times for the FBI name checks of applicants. USCIS must coordinate 
better with the FBI to expedite these applications and impose a strict 
deadline on the FBI for the completion of background checks. Some 
applicants wait years for the name checks to be completed. In a recent 
lawsuit, an application for naturalization has been waiting nearly five 
years for completion of the FBI name check. These delays are 
unacceptable, and I am a cosponsor of legislation that seeks to reduce 
FBI name checks to no longer than six months.
    In my district in Southern California, I have heard numerous horror 
stories about endless waiting times for naturalization applications and 
the FBI name checks. I have had to hire additional caseworkers to 
assist my constituents navigating the bureaucratic naturalization 
process. I have heard too many stories from constituents that have told 
of the impact the application fee increase had on their family when 
they had been saving up to submit an application for citizenship. These 
stories are all the more devastating when they share their excitement 
about voting in the upcoming Presidential election--a fundamental step 
for a new citizen--and their sadness when they learn that their 
application may not be processed in time.
    Through the debate over comprehensive immigration reform in recent 
years, it is clear that we all strive to encourage legal immigration. 
Any additional burdens, such as endless application processing times 
and significant fee increases, will only deter legal immigration. USCIS 
must examine all possible options to reduce the naturalization backlog, 
including the technological enhancements and the infrastructure 
modernization, which were components of the justification for the fee 
increase.
    When the agency made its final announcement of its fee increase, it 
reaffirmed its commitment to reduced processing times and cited a 
processing time goal of five months. The agency must seek to meet that 
goal and its commitment, and report to Congress on its performance.
    I thank the Chairwoman again for convening this hearing on this 
important subject matter.

    Ms. Lofgren. We will now go to our witnesses. Our first 
panel consists of Dr. Emilio Gonzalez who is the Director of 
the United States Citizenship and Immigration Services. Prior 
to his confirmation as Director in 2007, Dr. Gonzalez served as 
the Director for Western Hemispheric Affairs at the National 
Security Council and completed a distinguished 26 years' 
service in the U.S. Army.
    Dr. Gonzalez earned his bachelor's degree from the 
University of South Florida in Tampa, his master's degree from 
Tulane and the U.S. Naval War College, and doctorate in 
international relations from the University of Miami.
    With Dr. Gonzalez is Mr. Scharfen and Mr. Aytes as staff. 
They are not witnesses, but we are going to ask them to come 
forward and sit as resources to Dr. Gonzalez on technical 
issues to help respond to questions if there are technical 
issues that he wants to confer with them upon.
    So we would turn to you now, Dr. Gonzalez, for your opening 
statement. As you know, your full written statement will be 
made part of the record. We do ask that your oral testimony 
consume about 5 minutes. And when your 5 minutes is up, the red 
light will go on as a warning to you. So we invite your 
testimony at this point.

   TESTIMONY OF EMILIO T. GONZALEZ, DIRECTOR, UNITED STATES 
 IMMIGRATION AND CITIZENSHIP SERVICES, ACCOMPANIED BY JONATHAN 
SCHARFEN, DEPUTY DIRECTOR FOR DOMESTIC OPERATIONS, AND MICHAEL 
       AYTES, ASSOCIATE DIRECTOR FOR DOMESTIC OPERATIONS

    Mr. Gonzalez. Thank you. Chairman Conyers, Ranking Member 
Smith, Chairwoman Lofgren, Ranking Member King, and Members of 
the Subcommittee, I appreciate the opportunity to engage in 
dialogue and answer your questions about the dramatic increase 
in applications and petitions received at the U.S. Citizenship 
and Immigration Services in the summer of 2007 and how we 
intend to manage the resulting workload. I would like to invite 
USCIS Deputy Director Jonathan Scharfen and Associate Director 
for Domestic Operations, Michael Aytes, to join me at the able.
    Today I am here to testify about our naturalization 
workload, and I want to do several things. First, put that 
workload into context for U.S. background; second, share with 
you what we have done already to manage the workload; third, 
share with you what we plan to do; and lastly, share with you 
what we will not do. We will not compromise integrity or 
national security in the name of productivity.
    Last summer we received an unprecedented number of 
applications and petitions for immigration benefits. In June, 
July, and August alone, USCIS received over 3 million filings 
compared to 1.8 million applications and petitions filed in the 
same period during the previous year. This was a sudden surge 
of significant magnitude. We received 1.4 million 
naturalization applications last year, 400,000 in July alone. 
Every application we receive is unique and every case we handle 
deserves special attention. These are not just number on a 
chart. These are people's lives in our hands.
    USCIS employees understand that those who seek immigration 
benefits are demonstrating a desire to enter into our 
communities and enjoy the freedom and opportunity our Nation 
can provide. We applaud their commitment and their interest. We 
are committed to providing immigration services and benefits to 
eligible applicants as expeditiously as possible. Our goal is 
to implement the most immediate solution to this current 
processing delay without short-cutting our commitment to 
immigration integrity and national security.
    Monitoring the situation in real time, USCIS was quickly 
able to respond to the increased volume and implemented steps 
to manage this new workload. As an agency, our first priority 
was to accept filings and provide applications with proper 
receipt notices as quickly and as efficiently as possible. We 
accomplished this by expanding work hours, adding shifts, and 
detailing 84 additional staff members to our service centers. 
We also hired additional contract staff.
    As early as June of 2007, we were able to inform the public 
on the receiving process. And thanks to a committed corps of 
our service center employees, we were able to meet our 
commitment to process employment authorization cards for 
individuals within the 90-day regulatory requirement.
    Building on the foundation of the new fee rule, we refined 
our human capital processes to more efficiently hire new 
employees, train them and get them to the front lines. In the 
past, we had resources to bring on and train one class of 24 
students at a time. This year we will be able to conduct six 
classes of 48 students concurrently on a rolling basis.
    USCIS is currently in the process of hiring 1,500 new 
Federal employees, of whom 723 will become adjudicators. In 
addition, we will bring on over 1,700 more Federal and contract 
employees to address the workload surge. In October of 2007, 
vacancy announcements for new adjudicators attracted more than 
10,000 candidates in only 6 days. Last week the Office of 
Personnel Management approved our request to rehire experienced 
annuitants to further bolster our workload with temporary 
staff. This authority will help us meet our hiring goals upon 
which our current production plan is based.
    And I would like to take this opportunity to thank the 
Chairwoman for introducing legislation to support the USCIS 
hiring of retired annuitants. When we forwarded our request to 
OPM we made sure that they were aware of the actions Congress 
had taken in support of this effort.
    We will couple our staffing with more traditional methods 
of managing a large workload by asking current staff to 
continue working overtime in shift work and detailing employees 
to areas that have been most heavily impacted by the surge. By 
maximizing the use the overtime early in the year, we will 
boost productivity with existing employees while we work on 
bringing on the new hires.
    In addition to people, we are focused on technology. As 
part of our efforts to transform the agency from a paper-based 
environment to an electronic environment, we have identified 
technological initiatives that will have a lasting and positive 
impact. However, these and other combined efforts will prove 
worthless should we forsake integrity and sound decision making 
in favor of productivity over national security.
    Since its inception USCIS has operated under a business 
approach that emphasizes integrity as an overriding 
consideration in processing, reviewing, and adjudicating 
applications and petitions. Our decision-making process today 
is more robust and thorough than it has ever been, an approach 
we believe to be consistent with our obligation to individual 
applicants and the Nation as a whole.
    And since I am out of time, I will stop right there and 
leave the rest for the record.
    Ms. Lofgren. I thank you very much, Dr. Gonzalez.
    [The prepared statement of Mr. Gonzalez follows:]

                Prepared Statement of Emilio T. Gonzalez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. We will now go into the time when Members have 
an opportunity to pose questions to you, and I will begin.
    I understand from you and your staff that the agency signed 
an MOU, a Memorandum of Understanding, with the FBI last year 
to address the background check issues, and that it was 
anticipated that the improvements in the business processing 
aspects with the FBI and the additional staff and the like 
would result in a 40 percent improvement on the backlog, but 
that, in fact, it didn't turn out that way and that you are 
continuing to work with the FBI to try and improve this backlog 
situation.
    Along with that, I know, for example, in my own district, 
companies that have key employees that, some of these people 
have waited years and are now bringing mandamus actions in 
Federal Court to require the FBI to either say yes or no, you 
know, after 4 or 5 years. I am wondering where we are with the 
FBI. What is anticipated in terms of backlog reduction? And 
also how many lawsuits have been brought against the agency 
because of the FBI name checks? What is the status of those 
lawsuits? How many are still pending? And if you can just give 
us a glimpse into the future of that.
    Mr. Gonzalez. Thank you, Madam Chair. The FBI name check 
issue is one that has concerned me, quite frankly, since I 
started in this job. And the reason it is so concerning is 
because even though the FBI is responsible for conducting these 
name checks, when an applicant delivers their packet to us, we 
are the face of the U.S. Government. They look to us to 
adjudicate their file. A lot of times it is very difficult for 
them to understand, well, we gave it to another agency to work 
on.
    My deputy, Jonathan Scharfen, came on board in July of 
2006, and, recognizing the criticality of the FBI name check 
issue, because it touches everything we do--it touches our 
legal department, I get sued 500 times a month. I can tell you, 
I can break that down how many of those are mandamus. My 
legal--Office of Chief Counsel spends an inordinate amount of 
time defending me in court. A lot of judges out there are very 
frustrated with the number of immigration cases they have to 
hear.
    Ms. Lofgren. Do you know how many there are in terms of on 
the FBI check per se?
    Mr. Gonzalez. We have had over 5,000 lawsuits filed last 
year and 80 percent of those involve name check issues.
    Ms. Lofgren. Wow.
    Mr. Gonzalez. In addition to, I might add, this affects our 
agency because of the FOIA requests. Our agency, USCIS, is 
responsible for about 80 percent of the outstanding FOIA 
requests that the Department receives, because folks are 
frustrated and they figure if they can't get an answer one way 
they will get an answer----
    Ms. Lofgren. So the picture I am getting is, although it is 
handed off to the FBI and it is they who have not provided the 
information, not you, this is gumming up the works for your 
agency as well because of FOIA lawsuits.
    Mr. Gonzalez. The net effect is that we are the ones on the 
front lines and we are the ones who have to deal with it. The 
point I was getting to is when I brought Jonathan Scharfen as 
my deputy, I wanted to elevate this as high as I possibly 
could, and Jonathan has been charged since day one with 
engaging the FBI and working with them to come to an agreement 
on how best we can move these files while not sacrificing 
integrity or security.
    Ms. Lofgren. Nobody is suggesting that, but we want this to 
be done efficiently and promptly.
    Mr. Gonzalez. Yes, ma'am. And if I may, I would like to 
defer to Mr. Scharfen, who has actually been running this day 
by day and was instrumental in crafting and moving forward that 
MOA with the FBI.
    Mr. King. Madam Chair, just a point of inquiry. As the 
witnesses speak, may I ask a question of the Director on the 
record?
    Ms. Lofgren. Yes, absolutely.
    Mr. King. Thank you for that clarification.
    Mr. Scharfen. Thanks you, Mr. Director. The FBI name check 
process, as you understand we have been working with both the 
FBI and with this Committee to ensure that we start to 
implement first some process improvements and also some 
resources, plussing up the resources on that.
    As to the process changes, we did enter an MOA that looked 
at the type of cases that were being reviewed between the FBI 
and the USCIS, came to an agreement based on both efficiency 
and national security grounds that we were comfortable on and 
ventured that MOA. Unfortunately, as you mentioned, ma'am, it 
has not produced the numbers on the current workload that we 
expected. However, it has shown some benefits in terms of this 
surge. What we have not seen is an increase in the numbers of 
FBI name checks since this surge work.
    Ms. Lofgren. I can see my light is on. I will take the 
privilege of the Chair to go over slightly. We may want to have 
the Director come in, and you as well, because the FBI needs to 
explain what they are doing as well, and why the files have not 
been digitized.
    Just briefly, as the Ranking Member was talking about how 
moving it is to go to these citizenship hearings, I remembered 
a swearing-in in San Jose, and a little girl who must have been 
about 7 or 8 years old, literally doing cartwheels after the 
ceremony and saying yea, Mommy, you are now an American like 
me.
    It was such a precious moment and that is really what is at 
stake there. All these people who want to be Americans, and it 
is so important that those who are eligible be able to join us 
as Americans here today. And that is why this hearing is being 
held. So I will stop now and recognize the Ranking Member for 
his questions.
    Mr. King. Thank you, Madam Chair. And picking up with that 
theme, I would note remarks made by the Director in the Old 
Executive Office Building to those who were recipients of 
citizenship that day and he pointed out the window and said, 
look out the window of that house next door--that is the White 
House, by the way--and the occupant of that house after this 
day is no more American than you are.
    You couldn't do that in another setting in America, and 
that is something I will always remember.
    Director, I appreciate your testimony, and I take you back 
to my opening remarks about Citizenship USA. I would ask are 
you aware, are there any staff people that you have today that 
were involved with Citizenship USA back in 1995 through 1996 
era?
    Mr. Gonzalez. Thank you for the question. If I could just 
regress a little bit, Madam Chair, nobody takes naturalization 
more seriously than I do. I am a naturalized citizen and, in 
fact, in a lot of the ceremonies I conduct, when I read the 
oath it is a copy of the oath that I signed when I was 12 years 
old. And it is the immigration file that I had pulled out, and 
it is the same oath and I, too, get very moved. So we take our 
work very, very seriously and that is why we are putting forth 
the effort that we are doing to address this.
    Sir, with regard to Citizenship USA, the answer is yes. 
Quite frankly, that was about 10 years ago, 12 years ago. Much 
of our staff today was around when Citizenship USA happened. I 
will tell you that one of the things that we did, quite 
frankly, is as soon as we started working on our plan to 
address this backlog, is I pulled out the report from the IG in 
the Department of Justice on just what went wrong with 
Citizenship USA. We read it, we passed it around, we had our 
senior staff read it. And the issue was, there were really 
grave mistakes that were committed in Citizenship USA in an 
effort to move files, to move people to naturalization. And we 
wanted to make sure that those were not repeated and we wanted 
to sensitize our leadership that there is a right way of doing 
things and a wrong way of doing things, and we are not going to 
sacrifice quality and we are not going to sacrifice security 
for the sake of production. The results of that IG 
investigation, sir, are very damning back then, and we want to 
make sure that we do not repeat that.
    Mr. King. And yet, Director, you are under significant 
amount of pressure to be able to deal with this backlog that is 
a bubble on the graph as I look at it.
    And now a little bit about workload from my private-sector 
life, and when I see an annual workload there, I try to figure 
out how I am going to do an equivalent amount in each week and 
month to be able to arrive at that goal. Because I want to 
avoid the idea of putting on a temporary staff and then laying 
off that temporary staff and adjusting to that as if it were an 
emergency. I would rather be able to swallow that 
incrementally.
    How can you level that thing out and get that done in that 
fashion? And I think I would take it to this other question 
which is--in my remarks I took it back to the 13 percent that 
asked for naturalization in more recent years, and I understand 
those numbers have jumped up dramatically. That is why we are 
here. But what has been the patience level of lawful permanent 
residents in the process toward citizenship? Can you tell me 
what the average number of years that one will wait before they 
actually apply for citizenship and want to move ahead? Five 
years is the statute, but is it 10 or 12 or 20; what do we 
normally see?
    Mr. Gonzalez. Sir, we don't have that level of detail on 
that information. I can tell you anecdotally that a lot of 
people applied for citizenship this past summer who had been 
legal permanent residents for quite some time. And I will add--
and I will be very, very frank with you--this is a good thing. 
That people want to be citizens of this country is a marvelous 
thing. We have to do our part. But they have done their part. 
And the fact that folks want to no longer be observers of the 
American scene but be participants in the American scene should 
be applauded. And I say what I mean because everywhere I go and 
I give a speech for a naturalization ceremony, I encourage 
people to become citizens. That is the only way your voice will 
be heard.
    Mr. King. I am very well aware of that, Director, having 
witnessed that myself, and I appreciate that sentiment and 
share that with you. Also in my opening remarks, I mentioned 
about 180,000 who were naturalized during that citizenship USA 
process that probably should not have been.
    Do you have any information on the numbers of those people 
that would have had their citizenship revoked, and could you 
speak about how difficult the citizenship revocation process 
is? And would you in fact agree it is, for practical purposes, 
irreversible?
    Mr. Gonzalez. Yes, sir. ICE, the Immigration and Customs 
Enforcement, is the agency responsible for revocation of 
citizenship. It is extraordinarily hard to take citizenship 
away from an individual once it has been granted. I will defer 
to Deputy Director Scharfen here for more details on that.
    Mr. Scharfen. Yes, sir. We don't have the numbers of how 
many were denaturalized from that process. There were a number 
of proceedings that were initiated. However, as the Director 
pointed out, it is a very difficult process and it is incumbent 
on us to get the process right on the front end, and that is 
why we have the naturalization quality procedures in place that 
were born of that 1996 experience. And that does two things: 
One, it sets in procedures that have to be followed very 
carefully in all the naturalization process for our 
adjudicators; and then there is a quality control on top of 
that where you have quality control officers and supervisors 
checking off the naturalization process to ensure that those 
procedures are being implemented. And those procedures range 
from doing the security checks properly to making sure that the 
A file is collected properly. And that it is done very 
carefully, according to these procedural checklists that the 
officers work from.
    Mr. King. Thank you. I will submit a couple of questions 
for the record. And I yield back to the Chair.
    Ms. Lofgren. Thank you. The Chairman of the Committee has 
asked that we recognize our colleague from Illinois, Mr. Luis 
Gutierrez, for questioning.
    Mr. Gutierrez. I thank the Subcommittee Chairwoman and the 
Chairman of the full Committee for this opportunity to ask 
questions. First of all, I want to express to Dr. Gonzalez that 
I believe that he has a commitment to helping people become 
citizens of the United States and the rights of immigrants here 
in this country, and that that is not in question. Many times, 
maybe we shouldn't have to make those clarifications, but I 
think that is an important one. And whatever differences we 
have on this issue are differences of policy and of priorities 
maybe sometimes, but certainly not personal commitment. And I 
thank him for all of the hard work that he and his staff does.
    I would also like to take a moment to thank all of the 
community-based organizations that helped to generate this 1.4 
million new citizenship applications. It really was a community 
process. What a wonderful process in America where people take 
time out that are citizens of the United States to help others 
engage in this wonderful process. And without them we would not 
be here. We want to continue to encourage them and to continue 
to encourage the linkages.
    Having said that, I also want to say that this hearing is 
about how we help the people become citizens of the United 
States, how we quickly and efficiently grant them citizenship 
of the United States of America after they have made that 
application. I think it does absolutely no good to continue the 
demonization of immigrants by returning back to issues that 
happened 10 years ago, to continue to talk about citizenship 
and in the same vein talk about criminals becoming citizens 
when we know that is not happening today. It does no good. It 
continues the process, and that indeed that massive increase in 
those that have applied to become citizens of the United States 
has a direct correlation of the actions of this very Congress 
of the United States in demonizing those immigrants in the kind 
of xenophobic anti-immigrant attitudes that the Congress the 
United States has taken. And I am proud that those immigrants 
that can come forward, that can defend themselves, that can 
become naturalized, have done that. What a great process. That 
is the American process. But let's not demonize them for doing 
the right thing, for incorporating themselves into our great 
American system. I think that is wrong.
    I didn't come here this morning to attack anybody about 
what might have gone wrong. That is pretty good for headlines, 
pretty good for the media, and might make us feel all self-
worthy here today, but in reality it won't help one single 
person obtain American citizenship. And in this case, yeah, I 
would like them to become American citizens before the next 
election. I would like them to become American citizens in a 
quick, timely fashion because they did pay twice as much. 
Immigrants are paying today twice as much to become citizens 
because the financial resources were put forward.
    So, Dr. Gonzalez, I heard in your testimony that, on 
average, you receive 700,000 applications for citizenship on an 
annual basis. Is that correct, Dr. Gonzalez?
    Mr. Gonzalez. Yes, sir.
    Mr. Gutierrez. And last year you received 1.4 million?
    Mr. Gonzalez. Correct.
    Mr. Gutierrez. So you received 100 percent increase in the 
number of citizenship applications in your department.
    I understand that 60 percent of that 100 percent increase, 
6 out of 10, happened in 1 month, the month of July.
    Mr. Gonzalez. 400,000.
    Mr. Gutierrez. Of the 700,000, so approximately 60 percent 
happened at the very last--in the very last month.
    Now, I would like to say the following because I know the 
time is running out. That is, if you could put in writing to us 
what were the steps that you took as a department to be ready 
for what you anticipated as an increase. You knew it was 
coming, you could see it coming, because there was already 
300,000 more. And you knew that last month was going to add--
you know, everybody is going to come, many people are going to 
come at the very end to do that--what kinds of steps you took 
to make sure?
    And secondly, I am very, very interested, because time is 
of essence here, what are the steps that this Subcommittee, 
under the able Chairmanship of the gentlelady from California, 
can take to help address getting people through the 
naturalization process?
    And lastly, I would encourage us to call the FBI to stop 
talking about memos of understanding and memorandums of 
understanding, and stop calling simply the Director of 
Citizenship here, and call the FBI before this Subcommittee and 
find out why is it that they are failing miserably, miserably, 
in adjudicating these names. Because, Mr. Gonzalez has said--
and we recognize it--it is a big problem.
    So I would hope that the next time, with the same vigor and 
the same energy and the same vocation that we make sure that 
Mr. Gonzalez does his job, that we make sure that the FBI is 
doing its job, because if we do not hold both departments 
accountable we will have failed in our task to meet our goal 
and our responsibility and our commitment to those immigrants 
becoming citizens in a timely fashion. And I thank Dr. 
Gonzalez.
    Ms. Lofgren. By unanimous consent, the gentleman is given 1 
additional minute so the Director may answer. And I would note 
for the record, as I indicated previously, it is my intent to 
ask the FBI to come forward and provide some insight into what 
they are doing to correct and digitize their files.
    Mr. Gonzalez, do you want to briefly respond to Mr. 
Gutierrez?
    Mr. Gonzalez. Thank you, first, for your kind words about 
not only my commitment to citizenship, but my entire agency is 
committed to citizenship. Our 16,000 Federal employees and 
contractors all share the same goal, which is a transparent, 
effective and efficient Immigration Service within a security 
framework.
    We did see this coming, and we did make plans, and, as you 
mention, will be more than happy to get you these later. But as 
we saw an increase throughout the year, say from January 
through May, June, the increase was manageable, and it was an 
increase that did not affect our processing times. And what we 
did not anticipate, and I will be very honest with you, is a 
350 percent increase in 1 month.
    The issue for us is not one of resources to address this. 
The issue for us, quite frankly, is one of capacity.
    And I will get back to you those steps that we are taking 
to address the capacity issue, because every single file is an 
individual, it is a family, and they are all very, very 
different. And we are required to interview every single 
individual that applies for citizenship. That is not something 
that we will not abdicate, we won't subcontract, we won't 
outsource; that is our inherent responsibility.
    So the issue then becomes how do we get more professional 
immigration officers into the pipeline to the front lines to be 
able to address all of these waiting files. And those are the 
actions that we have taken. And I am actually very proud of the 
fact that our employees have stepped up throughout the country 
to try and address this.
    Although you see graphs like that, I will tell you that our 
work is retail. There are some cities where the surge was 
astronomical. There are some where it was negligible. So I 
think that as we look at this from a global perspective or 
national perspective, you are going to find that in those 
cities where the populations are high and the filings were 
massive, those folks could expect a longer wait than in cities 
where, quite frankly, the wait is negligible. But I will, sir, 
get those questions to you.
    Ms. Lofgren. Thank you, Director Gonzalez.
    We will now turn to our colleague from Texas, Mr. Gohmert, 
for his questioning.
    Mr. Gohmert. Thank you, Madam Chairman, and I really 
appreciate your having this hearing. I was hoping we would have 
more of these in the last Congress, and I appreciate the chance 
to do this now.
    One of the things--and I appreciate the Director calling me 
yesterday so we could talk before this hearing, and additional 
information that is provided my office this morning--but one of 
my concerns has been as I talk to people who would try to 
utilize the immigration service, it sounds like they have got 
more success with Third World countries' Immigration Service 
being more efficient than ours.
    We had one case in which we had a Belgian company that 
wanted to open a plant in my district, and they were going to 
hire all East Texans for the plant, except they just wanted 
their manager to be from Belgium. And after over a year of 
trying to get something done so we could get the manager in 
from Belgium, so we can get East Texans jobs, they just hit a 
brick wall. I have talked to their immigration attorney in New 
York. He said that they were told if oh, gee, you are tired of 
the delay, if you will pay another $1,000 on top of what you 
have already paid, we will expedite it. That moves it along. So 
they paid $1,000. Some months later they said what happened to 
the expedited procedure and were told, Oh, well, it did 
expedite one part; but if you will pay another 1,000 they will 
expedite another part. And so they paid another 1,000 and 
eventually after they had been held up for the extra fees, we 
got a manager and we hired some East Texas folks who were out 
of work.
    When I talked to the ombudsman for the Immigration Service 
at the end of last year and saw in his report--and I know, 
Director, you disagree, from what you said yesterday, with some 
of the findings, but his indication was that whereas the 
President at one point had said, I believe it was like 1 
hundred million more into the Immigration Service to move 
things along, that by delaying the processing of applications 
and taking much longer, that actually the Immigration Service 
was able to generate an additional $300- to $350 million, if I 
recall accurately. I haven't found that graph yet. But I would 
just like you to address that, the additional fee issue that 
may have arisen by delaying applications, get your response to 
that.
    Mr. Gonzalez. Thank you, Mr. Gohmert.
    First of all, I would like to, for the record, take issue 
with the ombudsman in accusing this agency of essentially 
sitting on files for the sake of generating revenue. That is 
clearly not the case. It doesn't happen, to my knowledge. In 
fact, when those comments are made, I take it personal and my 
staff, rightfully so, is offended by that.
    That having been said, when we came back and we testified 
last year regarding our fee increases, one of the things that 
we mentioned was the fact that even though our fees were going 
up an average of 66 percent across the board, we were writing 
into those fees any additional delays that we would have, so 
that an individual would not have to come back and get another 
work authorization or have to refile.
    So essentially, once the new fee structure came in, any 
delays would be--any cost in delays, would be absorbed by this 
agency. So I am not--if this is still a comment being made by 
the office of the ombudsman, I would venture to say that it is 
done with inadequate data.
    I don't know if my colleagues would like to comment as 
well.
    Mr. Scharfen. I think that covers it. I think the new fee 
rule takes that issue out of play, sir.
    Mr. Gohmert. By the way, can we have a second round of 
questions? There are not many of us here.
    Ms. Lofgren. I think, given the number here, that will be a 
good idea. We do have a second panel but we should have plenty 
of time to get to them.
    Mr. Gohmert. One of the ombudsman's recommendation, page 62 
of the latest response--and by the way, the material I was 
forwarded was a response to the 06 report rather than the 
latest information that we have from 07. But anyway, one of the 
things they mentioned on page 62 was a problem of lack of 
communication between the headquarters of CIS and the field 
offices, and also a problem with the losses of paperwork when 
things were transferred.
    I have another issue in my district where a man, sister and 
mother, had been in the U.S., been citizens for years. He has 
had an application pending for over 10 years. Just over halfway 
through that process, he was told the paperwork was lost. Just 
resubmit the paperwork, which was apparently a mistake, because 
he started from all over again with a new number rather than 
continuing with the other number. And we are told that his case 
should come up for adjudication some time this year, hopefully 
not too long. But in the process, he had to pay additional 
fees.
    So even though I don't know that the ombudsman was saying 
that there was an intentional delay to increase fees, that 
appears certainly to be one of the results.
    Some people have interpreted some of our concern about 
illegal immigration as meaning we don't wants immigration. We 
do want immigration. It is the strength of this country. I 
think the melting pot is a great concept that has really made 
us strong. But it has got to be legal. But then again, we need 
a CIS that moves applications, that doesn't make us look like a 
Third World country. And I would like your comment on the issue 
of losses of paperwork, lack of communication between 
headquarters and field offices, and what may be done to improve 
that.
    Mr. Scharfen. Yes, sir, I will take them.
    Ms. Lofgren. Gentleman is recognized for an additional 
minute so that he may respond.
    Mr. Scharfen. I will be very quick, sir. First of all, as 
to the paperwork, that is always going to be a problem with an 
agency that does between 6 million and 7 million transactions a 
year, when it is still a paper-based agency that is still using 
mail to mail different folders and files around the country. 
The whole purpose of the transformation program is to transform 
the agency from a paper-based system to an electronic system. 
And one of the benefits to that will be that you will have 
better accountability, better speed, and better recordkeeping.
    We have over 100 million records in this agency that we 
have gotten in different parts of the country that we manage in 
our records facilities. On top of that, you have the annual 
flow of documents coming in that are paper-based. We are going 
to move away from that in the next 5 years during our 
transformation process and move to an electronic digitized 
system, and that should help that significantly.
    As to the speed of processing applications, first, under 
the new fee rule, there is no financial benefit to the agency 
on delaying of any type of application processing of the 
application.
    Second, also with the transformed procedures, the speed 
with which we process those applications should be increasing.
    As to communications, let me just answer it in terms of our 
current challenge here with the naturalizations. I can assure 
you, sir, that we have been having routine and recurring 
meetings with our field managers on the challenges that we face 
with processing the naturalizations. Mike Aytes here has a 
meeting, I believe next week, with his production managers, who 
are his regional and service center directors, and they are 
going to be talking about just these sorts of things, about the 
processing times and the challenges that the ombudsman spoke 
about.
    Finally, in terms of communicating with the public, we have 
a robust program where we have been trying to get out the word 
about the processing delays, both in Web sites and in large 
phone calls with our different stakeholders, which the 
ombudsman has been a part of as well.
    Ms. Lofgren. Thank you very much. At this point, the 
gentlelady from California, Ms. Sanchez, is recognized 5 
minutes.
    Ms. Sanchez. Thank you. I want to thank the Chairman of the 
full Committee for being so kind as to yield.
    Dr. Gonzalez, as a Member of Congress, we encounter 
casework in our district offices. And as a result of some of 
the inefficiencies that my constituents experience with your 
department, I would say 85 to 90 percent of the casework that 
comes into my district office are people who have inquiries 
about the status of their immigration applications; 85 to 90 
percent of every problem that constituents bring to my office 
is immigration-related. And I applaud your effort that you take 
this work seriously and want to help reduce the backlog.
    But so long as I have been a Member of Congress and have 
served on this Subcommittee, which has been 6 years now, we 
have had the problem of backlog. And we seem to talk a lot 
about the inefficiencies and talk about the challenges. And yet 
through various initiatives we try to work, Congress tries to 
work to help give the tools that are necessary to help reduce 
that backlog, and yet the waiting times keep getting longer, 
not shorter. And I find that incredibly frustrating because I 
am the one that has to deliver news to the constituents that we 
just don't know why it is taking so long.
    In June of 2007, CIS ombudsman Khatri issued an annual 
report to Congress, and included in that report were several 
recommendations to the agency of how to reduce the backlog. I 
am interested in knowing if you read that report. Did you?
    Mr. Gonzalez. I did. And we have responded to that report.
    Ms. Sanchez. So what types of recommendations that were 
included in the report, if any, has the agency implemented?
    Mr. Gonzalez. Okay, first off, I will get to your first 
point and then I will defer to my colleague, Mike Aytes.
    I understand the frustration when you have casework on 
immigration. If you look at this from a macrolevel, we as an 
agency are able to satisfy our applicants within the respective 
time periods that we tell them about 95, 96, 97 percent of the 
time. Regrettably, because of the volume we encounter, that 3 
or 4 percent of people that have problems adds up to a fairly 
large universe of folks.
    Many times the waits that you are talking about are waits--
and without seeing an individual case, because this is 
individuals we are talking about here--it is hard to say 
whether it is a problem with us, whether it is a problem with 
another agency. It may very well be a problem with that 
individual, whether there is paperwork missing from their file. 
There are a lot of moving parts in processing an immigration 
file.
    Ms. Sanchez. I understand it is very complex.
    Mr. Gonzalez. It is so complex we need immigration lawyers 
for it.
    Ms. Sanchez. And I understand that. But that shouldn't be 
an excuse for the types of waits that people are experiencing. 
These are just--we called late last night the office: Just give 
me some of the current casework we have got.
    I will give you one case. Constituent originally filed for 
naturalization in October of 2005. She passed her civics and 
English exam in February of 2006. All of her friends who 
applied for naturalization after her have already been sworn in 
as citizens. Her case is still pending. And every 6 months she 
gets notices to get her fingerprints taken over, because they 
expired.
    That is the second question I have. Why do fingerprints 
expire, and why do they have to keep resubmitting them?
    There was an issue where her mother was sick, and this 
particular constituent is from Taiwan, and she was afraid to 
visit because she was afraid she might miss a notice of her 
swearing-in ceremony.
    And I have seven or eight just that they pulled off the top 
of the stack last night, similar types of circumstances where 
people have been waiting since 2004, 2005, 2003, you know, 
other than, well, the system is complex and, well, we have to 
wait for something.
    Can you understand why, as a Member of this Subcommittee, I 
have been here for 6 years and heard about the backlogs and the 
waits are getting longer, why that is particularly disturbing?
    Mr. Gonzalez. I would agree with you that there is no 
excuse for an unnecessary delay. Again, from what you just told 
me and not seeing this file--and I would be more than happy to 
take it from you and if you give me more details we will look 
into it--it could well be that this person has already been 
interviewed and they have already passed the citizenship and 
English test. It may well be that it is hung up in another 
aspect of the process, being a name check.
    With regards to the fingerprints, we are addressing that. 
We are creating a biometric storage system now as part of our 
transformation program where we will store fingerprints. 
Fingerprints don't change unless people want to physically 
alter them. This is an issue we are addressing.
    I will have my deputy, Jonathan Scharfen, address other 
details.
    Mr. Scharfen. I see we have--the light is on, ma'am--but 
what we can do is two things. The Director is correct; we have 
as part of our transformation program a program that we hope 
will start showing results by this summer.
    Ms. Sanchez. Can I get that in writing?
    Mr. Scharfen. We will get youa letter on describing the 
program on the FBI check.
    Ms. Lofgren. We will be having a hearing on the FBI name 
check, if I may interrupt before recognizing the----
    Ms. Sanchez. I realize my time has expired. Many of these 
people have their background checks completed and there is 
still a delay. With that, I will yield back.
    Ms. Lofgren. Chairman of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you very much. This is a great hearing. 
I want to first point out that my dear friend, the Ranking 
Member Steve King is sounding very good today. This is his good 
day on immigration. If you have heard him, he can really hit 
some good high points. And I am glad we are looking at this, 
Steve, in a very constructive way. You are on the top five list 
of people who are considered to be the leaders of criticism 
about immigration in general. But I have got Judge Gohmert 
working with me, and we are continuing the process of keep hope 
alive.
    Now here is the problem that is developing, Dr. Gonzalez. 
You have heard us all. Every time there is a fee increase, 
there is a bump in citizenship applications. You don't have to 
take Statistics 101 to figure that out. So LULAC, SCIU, NALEO, 
all those citizenship drives that alert you. So we know this 
thing is coming. And all I want you to know is that we have got 
to get to the bottom of this. I want you to review my opening 
remarks very carefully. They didn't have your name on them. But 
I need you to think through this thing in the detail that is 
characteristic of this Committee. And let me tell you this, 
this is not going to work. Talking about, it is not an issue of 
resources but an issue of capacity.
    Now, if this isn't an issue of resources, I don't know a 
resource shortage when I see it. We are real short, and we have 
got to do something about it real quickly. That is the whole 
thrust of us all coming here today. And so I need you to put 
your thinking cap on, bring all your sharp men and women 
together here and let's get about this thing, because you need 
some resource help like nobody else I know of in government. So 
let's get going on that please.
    Ms. Lofgren. Thank you, Mr. Chairman. Ms. Jackson Lee was 
next. I don't know if she is in the--oh, Ms. Jackson Lee has 
reappeared and is recognized for 5 minutes.
    Ms. Jackson Lee. Let me acknowledge the importance of this 
hearing to Dr. Gonzalez is that we are talking about legal 
immigration. And I have listened to my colleagues as I have had 
a number of meetings, and I will discuss a wide range issues 
that don't seem to appreciate that the difficulties that we are 
having and the difficulties that are being addressed have to do 
with people lining up to engage in the process legally. And I 
think that should be reaffirmed. I too want to acknowledge a 
number of groups who participated in naturalization ceremonies 
in my own community of Houston, Texas, which remains a very 
large highly diverse community and with a sizable immigrant 
population. The naturalization ceremonies are teaming.
    And complementing that process are organizations like the 
League of Women Voters who are there, ready to provide an 
opportunity to express yourself through the election process. 
And they are registering people to vote. And I did not hear the 
entirety of my good friend from Iowa's comments, but I hope we 
can applaud the fact that people are being naturalized, albeit 
we are here to discuss the delays, and I will raise those 
questions, but they are also registering to vote. Rightly so. 
They are doing the paperwork. They have documentation, and they 
have the best documentation, which is the immediate document 
that says, you are now a citizen. So I am not sure how we are 
in conflict when citizens register to vote, albeit they may 
have a different name, a different faith or they may be a 
recent citizen. We want to applaud that.
    The second thing I want to acknowledge is, Dr. Gonzalez, we 
need, in spite of the waning hours of this Administration, we 
know that the President just spent a good week in the Mideast 
to regain some status on the whole question of the Mideast 
peace process. I think he needs to spend some time in the 
Nation's cities and States who are suffering under the lack of 
action by this Congress, and the need for the utilization of 
the bully pulpit on the idea of comprehensive immigration 
reform. It is of high priority, and I want to see a White House 
engaged.
    I frankly believe that all things are possible, and I say 
that because the evidence of what is happening today and the 
delays is partly a recognition that one, people clamor for 
citizenship, and two, those who are undocumented for a variety 
of reasons would, in fact, engage in the process if we had a 
process. I might, in fact, ask you that question as to whether 
or not the Administration is still committed to comprehensive 
immigration reform, is my first question, recognizing that I 
had hoped you won't take up a lot of time on the question of 
border security because that is a given. My question is, are 
they still committed to the idea and the concept of finding a 
way to have people access legalization?
    Mr. Gonzalez. Thank you, Ms. Jackson Lee. I think the 
President is pretty much on the record as having backed 
immigration reform. He spent a great deal of political capital 
trying to move immigration reform. I count myself among those 
that was very disappointed when we didn't achieve immigration 
reform. In fact, I found myself in a situation where I was 
speaking to about 500 Hispanic leaders, and 5 minutes before I 
was supposed to speak to them, immigration reform crashed. And 
here we had 500 people expecting me to talk about immigration 
reform.
    It is one of the worst days of my life. Whether this is 
going to be resurrected, I can't answer that. I genuinely 
believe that we cannot sustain as a Nation some 12 million 
people that are in this country illegally. That number may be 
higher, that number may be lower. But if we use the number of 
12 million people, that is the population of Belgium or the 
population of Ecuador if we want to use our hemisphere.
    By not engaging in immigration reform, I think we do a 
disservice to this country because you can't have this many 
people living in our midst and we don't know who they are, we 
don't know what they are doing, we don't know what they look 
like, we don't know what their pasts are. And we don't know--
most of them, I would say, a large number of them are probably 
hard-working people, but some of them may not be. So I would 
hope that immigration reform is something that will be 
resurrected. Proper immigration reform. And I say proper 
because it can't be all things to all people.
    And a personal level, because I do take this very 
seriously, and I was involved in the discussions, we need to be 
able--and I may be philosophizing here but you gave me the 
opening.
    Ms. Jackson Lee. I ask the distinguished Chairman for me to 
at least put two sentences on the record.
    Ms. Lofgren. Without objection, the gentlelady is 
recognized.
    Ms. Jackson Lee. Dr. Gonzalez, I don't want to cut you off. 
I know this is passionate. Did you want to finish your 
sentence?
    Mr. Gonzalez. What I was going to say is, I think it is 
going to take effort from the executive, and it is going to 
take effort from this body because I don't think we can wait 2 
or 4 years to address the issue of those individuals who are 
living amongst us who are beyond the law or who are outside of 
the legal statement.
    Ms. Jackson Lee. We needed that statement. Let me just 
quickly make these two points. And I know that if we have a 
second round, you may answer them even in my absence. I have a 
security briefing that may be occurring. But we cannot overlook 
the crisis of the FBI watchlist. I know the Chairwoman is going 
to have that. I am presently dealing with a mountain of cases 
of doctors who are here, trying to serve our communities who 
have been in limbo now for 5 or 6 or 7 years. That is the first 
thing. The second is, the delays are intolerable. And what I 
will encourage you to do, and I understand you may be looking 
at it, is to build capacity.
    Let us go to the historically Black colleges, Hispanic 
serving colleges, let's recruit people on the ground that can 
be trained, that can make the dream come true, which is, this 
is a government that works. People who access the system in the 
legal way should not be punished, should not be the victim of 
their own commitment to legalization. And that is what is 
happening with these extensive delays. And I hope that you will 
take that offer up.
    Mr. Gonzalez. Thank you, ma'am.
    Ms. Lofgren. The gentlelady's time has expired. We will now 
go to a brief second round. And I will begin.
    Dr. Gonzalez, in the past--it is only this last year, I can 
say this, that I have served longer in local government than I 
have served in the Congress. And I recall when I was in local 
government, the county really did care about all of the people 
who lived in the county, U.S. citizens, legal residents, and 
people trying to get their residence. And from time to time 
when there were huge backlogs, we offered the then-INS 
assistance. We gave space for free to the INS.
    We actually had a little back and forth at the time, we 
provided clerks from the court who had actually background 
checks that the INS employees didn't even have to assist the 
agency to get their job done because we were so frustrated with 
the delays. It is my understanding that the Department of 
Homeland Security is prohibited from accepting help or space at 
a free basis from others, including local government, because 
of a gift rule that didn't exist with the Department of 
Justice. Is that still true? And what do we need to change so 
if the school district wants to donate the school auditorium 
for a swearing in ceremony, you can accept the donation of that 
auditorium?
    Mr. Gonzalez. Thank you for the question. It is not that 
the Department is not allowing us. One of the things that we 
have gone to the Department for is the ability to use say the 
university, nonprofit organization, a city hall or a city 
municipal government.
    Ms. Lofgren. Sure, can you do it.
    Mr. Gonzalez. To give us classroom space so we can 
interview people on weekends, on nights.
    Ms. Lofgren. Whether it is swearing in or office space.
    Mr. Gonzalez. For us it would be with naturalizations is 
not have to do it in the same building but we could do shift 
work.
    Ms. Lofgren. Right. Does a gift rule prohibit you from 
doing it?
    Mr. Gonzalez. We as an agency are not allowed to accept 
those types of facilities.
    Ms. Lofgren. What do we need to do to change that?
    Mr. Gonzalez. Well, the Department is already in the 
process of putting together a proper policy memo which will 
allow not just our agency but all the other agencies within the 
Department of Homeland Security to accept that sort of support.
    Ms. Lofgren. Well, I am talking to Secretary Chertoff on 
another matter in about an hour. Maybe I will raise this with 
him in addition to the other matter we are talking about.
    I want to talk about how we can work together being 
individual Members of Congress and your department--to make 
this work better. Before Christmas, I gave you a memo that was 
prepared by a lawyer on my staff in San Jose, pointing out that 
the information officers in the San Jose office was giving 
incorrect legal advice to people who were seeking information 
and further will no longer give information to congressional 
offices.
    I haven't yet gotten an answer to that. I am raising it 
here today in the hopes that I will get an answer. But the 
point I am making is that all of our offices, are pulling in 
the same direction. I have case workers, Mr. King, everybody 
has case workers trying to sort through the facts. In fact, I 
have hired three immigration lawyers in my office, all of whom 
you know are experienced in this. I have one who taught the 
course. I mean, they go and correct the misinformation that is 
given by information officers who don't know the law. So how do 
we work together, if our staffs can't get access to the 
information obviously with the permission of the applicant, 
then we can't help solve problems and make sure things go well. 
How do we work better in that regard, Dr. Gonzalez?
    Mr. Gonzalez. I can't address the issue of that individual 
you just mentioned.
    Ms. Lofgren. It is not an individual. It is me. It is my 
office that will not get information.
    Mr. Gonzalez. Exactly. Your office received erroneous 
information from----
    Ms. Lofgren. Not just once. I mean, multiple times, dozens 
of times.
    Mr. Gonzalez. At the agency level--and not to address that 
particular individual or that particular office. But we are in 
the process right now of making major investments in our 
training program. We want to not only recruit the very best 
individuals, we want to train them to the very best of our 
abilities.
    Ms. Lofgren. Our time is almost up. If a congressional 
office--I mean, the individual, whether it is a citizen 
checking on you know their spouse or whatever the matter is, 
they called and now they get--the information office they can't 
get any information. So in desperation, they call the 
congressional office. And if we are given the same access to 
information as the person making the inquiry, which is nothing, 
then they are going to sue. And so you are going to have 
instead of 500 lawsuits----
    Mr. Gonzalez. We are very familiar with lawsuits.
    Ms. Lofgren. You are going to have a lot more. It would be 
a lot smarter for the Department to say, okay, if you have got 
a written release from the applicant because we have privacy 
issues and you have got an office that is trying to sort 
through this in the best interest of everyone to provide the 
facts and the information and then we can help bring this to a 
resolution, wouldn't that be a good idea?
    Mr. Gonzalez. I would be more than happy to sit with you 
personally, or have my staff and your staff get together and 
see how we can put our heads together and try and find an 
adequate solution, yes.
    Ms. Lofgren. I would appreciate that.
    Mr. Gonzalez. I would welcome that.
    Ms. Lofgren. Mr. King, you are now recognized for 5 
minutes.
    Mr. King. Thank you, Madam Chair. As I listened to the 
questions asked by the gentlelady from Texas, and Director, 
your response to the question about whether you support and 
endorse the Administration's comprehensive immigration reform 
policy and your answer, as I recall, was that you are concerned 
that this Nation needs to do something within the next couple 
of 3 years. We can't afford not to.
    Conceptually, and I think I am there at least with that 
analysis. But my question then arises out of that response as I 
consider that the technical part of your job wouldn't be 
dealing with what policy might be coming out of it, but what 
the policy that actually you are charged with enforcing.
    So I would have to ask you, does that philosophy that you 
espouse here before this Committee that you share with the 
President of the United States, as I understand it, does that 
affect the way you do your job? And how is that viewed by the 
16,000 employees at USCIS, as they carry with them a certain 
philosophy, how does that affect their work, does it affect the 
way do you perform your job at all?
    Mr. Gonzalez. My opinions on the need for immigration 
reform reflect the President's in that because we are part of 
Homeland Security, I view immigration reform, any immigration 
reform through the lens of Homeland Security. Do we need to do 
something about 12 million illegal people here? Yes, we do. It 
is not my position to decide what we do. It is something that 
needs to be worked out through the executive, through the 
legislature. But I genuinely believe that having that many 
people here that we don't know anything about is not a good 
thing. It is not a good thing.
    Now we can argue about what the remedy is, but I would 
venture to say that on a personal level, the status quo is not 
acceptable. Now with regard to my employees, do understand that 
by definition, all of my team that my employees deal with are, 
in fact, legal. So we are a player in the immigration reform 
legislation or we were because we would inherit and we would 
have to process anybody who were legalized. But people who come 
to my office for benefits are, in fact, here legally. And if 
they are not or we find out through a data check that somebody 
is in our office, even though they may be legal, but there may 
be an outstanding criminal warrant for them, we detain them.
    Mr. King. By definition, they are here legally but they may 
not be here legally because they could have fraudulent 
documents that got them to that point, to be in your office. 
But that is not really my point so much--well, it is part of it 
and is encompassed in it. But the thing I am more interested in 
is that I have never been able to understand the rationale of 
the Administration or the people who advocate for comprehensive 
immigration reform, and it is a very polite name that has been 
advocated that way. How this Nation is safer when you legalize 
12 million or more people that are crossing the border under 
restraints and concern about being caught in the process who 
now would have more opportunities to cross the border, not 
less, because they could cross legally and illegally if they 
are legalized.
    And if we move people through the process and grant them a 
z visa or whatever we might, to give them temporary status 
here, to let them get in line for a permanent status, how is 
the Nation safer when we make people who would not have a 
background check done on them in the early stages of this of 
the z visa side? How is America safer if we legalize people 
without knowing about their background? And if we have 4 
million people coming across this border in a given year 
illegally, that huge human haystack of humanity, and in it are 
the needles that would be criminals, drug dealers, those 
elements, terrorists, that we are concerned about, how is 
America safer by legalizing the hay and presuming that the 
needles will emerge if we legalize the hay because we will be 
legalizing some of the needles as well, will we not?
    Mr. Gonzalez. The border issues you mentioned is not 
something we involve ourselves with. But the issue of 
immigration reform at large--and we could talk about this 
forever is--again, and I will say that the Administration, the 
President expended a great deal of political capital in trying 
to move the ball forward in trying to address a problem that to 
this day is not being addressed. We can disagree as to what the 
processes may be.
    We could disagree as to what the qualifications might be. I 
certainly don't advocate nor have I run into anybody that has 
advocated an amnesty program because an amnesty program is 
something that I don't think anybody would support. We have to 
be able--and this is something that we carry with us--coming to 
the United States and being a citizen or being a resident, this 
isn't like going to a retail outlet and paying your money and 
saying, I want something now. It is a process. And we have to 
be able to tell people no if they don't qualify. And if we 
can't tell--even if it is a minority of the people no, then how 
do we tell the majority of the people who are truly deserving 
yes? I genuinely believe that something needs to be done----
    Mr. King. I thank the director. I will ask for an 
additional 15 seconds.
    Ms. Lofgren. Without objection.
    Mr. Gonzalez.--needs to be done with regards to immigration 
reform. Do I have all the answers? No. But it is clearly--I 
think that the status quo is unacceptable. And I think that if 
we come back 4 years from now and have a hearing like this on 
immigration reform, then the numbers will be much higher.
    Mr. King. I will just conclude with a definition of amnesty 
and that is to pardon immigration lawbreakers and reward them 
with the objective of their crime, and I think that policy does 
constitute amnesty. Thank you, Madam Chair.
    Ms. Lofgren. Without objection, I would like to add to the 
record the report from the Congressional Research Service on 
their analysis of the trends and would note that no one is 
saying you don't have the right to say no. The problem is, when 
you don't say yes or no for an extended period of time, there 
is a problem. I would recognize the gentlelady from Texas, Ms. 
Jackson Lee, for her second round.
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman. And 
you are absolutely correct. I think Dr. Gonzalez captured it in 
his, I think, very important statement in my earlier question. 
But the point is, is that rules allow to you say yes or no. 
Framework allow to you say yes or no. And I take issue with my 
distinguished friend from Iowa simply to suggest that a 
framework that has people penalized for their present status, 
but then gives them an opportunity to access legalization is 
not in the true sense of the word rewarding people for their 
crime.
    And I believe that the status of being unstatused is still 
a civilian or a civil issue unless you have perpetrated a 
criminal act. And so you can be deported not criminally, but 
you can be deported for failing to comply with the rules of 
immigration. And I hope we can decipher that so we can move 
forward.
    I want to focus on the testimony that you had that 
indicated how often you have been sued and over 80 percent of 
those cases were FBI watchlists. And my question, if you can 
specifically speak to the causes of that delay and on average, 
how long do these name checks take? And how can we get the FBI 
to expedite the process? But in the course of your answer--and 
I have three questions. I am going to lay them on the record 
now so that you can quickly answer all of them. What is the 
relationship that your agency has with the FBI? How can we help 
facilitate that better even though we may haul them in here to 
this hearing, you won't be sitting at the table.
    So how can we extend an olive branch that says, we believe 
in security but we want to see this process work so that 
doctors or nurses and people who are here to try and be 
contributing are not delayed? The other question is for those 
who applied for naturalization in 2007, do you expect that you 
will finish your work in 2008? And would you answer my question 
that I gave you at the end of my statement in terms of 
outreach, what are you doing to expand your recruitment and to 
build capacity so that possibly you would answer the former 
question about getting the job done in 2008? And I, again, 
thank you for your work as well.
    Mr. Gonzalez. Thank you, ma'am. I will start backwards. We 
do have--we do have an outreach program. We advertise our 
positions. We received 10,000 applications for adjudicator 
positions that we advertised in a period of 6 days. We are 
reaching out to historically Black and Latino colleges and 
universities to ensure that we maintain a very healthy, diverse 
workforce within our agency.
    With regards to the naturalization applications and whether 
those individuals will be--the individuals that applied last 
year will be naturalized this year in a very general term, and 
I will turn it over to my deputy for specifics. It is really 
going to depend on where they file. And it is going to depend 
on how clean their file is.
    Again, it is very, very difficult to look at all these 
applications as one and say, well, we can do this in x number 
of months because they are not all the same--there are a lot of 
moving parts. And each individual application is very, very, 
very unique. Now, there are some cities where we received a 
deluge of applications. There are some cities where we didn't.
    So again, this is retail work. I can tell you that we are 
working these as quickly as possible. I would be remiss if I 
told you definitively that by such and such a date, we will 
have approved x number of cases because that would be 
dishonest. And I don't think that we want to go to a position 
where we are going to require our employees a quota system 
where you have to do this many cases because that would just 
invite cutting corners.
    We want to make sure that we continue our processes, that 
we continue being secure, that we continue to promote quality 
and assurance that the work that is being done is being done 
within the framework of homeland security. I will defer to my 
colleague----
    Ms. Jackson Lee. My time is running out. So I want you to 
get to the FBI and other questions.
    Mr. Scharfen. Yes, ma'am. As to the FBI name check, our 
relationship with the FBI has been a close one recently as we 
have tried to work together through this shared problem with 
the FBI. We have had meetings between the deputy secretaries 
and the deputy director of the FBI. We have worked through to 
reach an agreement on the MOU about the way in which we would 
do the files searches. But the bottom line is that the FBI has 
an antiquated paper-based system that they are only beginning 
now to transform. And so we have to manage an old system. What 
that means is that unfortunately to a large degree, we have to 
throw manpower--people at the problem. And that is being done 
now. For instance, the FBI has hired 221 contractors to date 
and also has increased their full-time employees by 20. They 
used to have 20 full-time employees working this issue for us. 
Today they have, as I said, 221 contractors working it and 40 
full-time employees working it.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. Madam Chair, I think that is outrageous 
not to blame the witnesses, but contractors already send 
nightmares in terms of security, and I hope that we can address 
this question head-on. I think it is an abomination. I thank 
the Chairwoman for yielding. I yield back.
    Ms. Lofgren. I recognize the gentleman from Texas, Mr. 
Gohmert.
    Mr. Gohmert. Thank you again, Madam Chairman. I would like 
to follow up on that a bit. One of the concerns has been that I 
have had has been the security clearance of the benefits 
adjudicators and director. We had discussed that briefly 
yesterday. And it continues to be a concern. And the 
information that we are provided indicates that--of course, 
since 9/11, things are gotten tougher in making sure that 
adjudicators, those who are checking the name or seeking name 
clearance and reviewing those files had adequate security 
clearance and that, as I understand from the information we 
have been provided today, that employees, perhaps over 3 years 
have been grandfathered in to be allowed to review the name 
check system and that newer employees are being required to 
have the security clearance.
    But you know, and I so much appreciated the comments in 
your introductory remarks that although we do want a 
streamlined process so we don't appear to be the worst of the 
third-world immigration services, at the same time we can't 
afford to lose security. The MOU with the FBI was mentioned. 
But I had been concerned, and apparently there is a basis for 
it that we have had people that should not be utilizing the 
name check system potentially in adjudicator status, reviewing 
those and making adjudications.
    So I want to know what kind of security efforts have been 
made? And hopefully, redoubled.
    Mr. Aytes. Sir, if I may, Customs and Border Patrol Agency 
which manages Tex, the system that you are referring to, did, 
after 9/11, raise their standards for security clearances. We 
worked with them. We incorporated them----
    Mr. Gohmert. You don't disagree with the need to raise the 
security?
    Mr. Aytes. Not at all, sir. We incorporated those standards 
for all of our new hires and we have worked with them to work 
out a plan where over 3 years we will raise the security level 
of all of our existing folks who have access to that system. 
But all of the employees who had access to that system today 
had the necessary security clearances at the level that CBP had 
previously required. So this is an issue of raising standards 
and applying those standards to our existing workforce as 
quickly as we can rather than on unqualified employees having 
access to records.
    Mr. Gohmert. Anybody else want to add anything on that? 
Okay. I noted in the ombudsman report, there is a reference to 
work-at-home challenges. And in view of the problems with 
taking computers home that we saw with the Veterans 
Administration, it kind of scared me to see that even though we 
have taken up the issue in this Congress about, you know, some 
businesses should have that flexibility. It may be that some 
government functions can be done just fine from home. But when 
we are talking about this Nation's security, it concerns me to 
hear there may be a work-at-home program. Is there a work-at-
home program where important security information, private 
information is taken to people's homes?
    Mr. Scharfen. We do have a work-at-home program, sir. And I 
will get back to you with regards to the specific security 
arrangements that are applied to that working arrangements. But 
I know that we have them. We have discussed it. And one of the 
offices that just within the last couple of weeks, we were 
discussing just this issue and our information technology chief 
information officer has also, I believe, looked at this issue. 
But we will get back to you with details about that, sir. It is 
an issue----
    Mr. Gohmert. Well, it certainly concerns me, and I would 
like to know more about it because I have a real problem with 
the security-sensitive situation of taking work home. Just 
seeing my time is about to----
    Ms. Lofgren. Would the gentleman yield? I will grant by 
unanimous consent an additional minute for him to yield.
    Since the agency, as I understand it, is not yet there 
technologically, so you could have a secure either biometric or 
password-secured telecommute, would it be true that if there is 
a work-at-home program, employees are taking paper files home?
    Mr. Scharfen. I will have to get back to you on that issue. 
That can be the case, ma'am. But it is a limited program, and 
we will get an answer to you.
    Ms. Lofgren. I thank the gentleman for yielding, and he has 
an additional minute.
    Mr. Gohmert. Thank you for that very intuitive question. 
Well, just in conclusion, one combined question here. But there 
has been a recommendation by apparently not just the ombudsman 
but many others to provide clearer instructions, provide 
information on the actual rejection criteria, use less 
legalese, particularly in the quest for additional information, 
and that if there is a checklist that service centers use to 
make sure that all information is properly in, that the 
checklist be provided to people as they make applications.
    Now we have had hearings in the past year on possibly 
reduce--or increasing the fees. And I think the Chair and I 
have had disagreement. I don't have as much problem increasing 
fees if we can do it in such a way that we cut out the 
legalese, allow people not to pay $3,000, $4,000, $5,000 to 
attorneys that may not actually be needed. But if we can 
streamline that process where they can apply without an 
attorney, pay a little more money to get it done through the 
system, I don't have a problem with that. But with regard to 
these recommendations, what if anything is being done?
    Mr. Aytes. Sir, we absolutely agree on that score. And we 
have a group of folks who are looking at all of the 
instructions for our application forms with the idea being to 
focus them more toward individual customers. Right now there 
are a combination where if you are filing for a particular 
benefit, the instructions may be the same on the same package 
as for another customer who is seeking something else.
    We are going to focus them, make them far more specific and 
incorporate checklists of the kinds of documentation that needs 
to be submitted not only to have your case accepted, but to 
have your case adjudicated.
    Ms. Lofgren. The gentleman's time has expired. We may be 
able to further explore these issues later. The gentleman from 
California is recognized.
    Mr. Berman. Thank you, Madam Chair. And I apologize for not 
being here for the testimony. And I gather that a number of the 
questions I had have been asked and dealt with.
    One issue I just wanted to--I don't know if I am asking in 
response, although following up on a specific individual might 
be useful. But this is someone from my district. He files his 
naturalization application in February of 2006. After much 
effort, he learns that he was part of the name check backlog 
and was advised by your agency that they could do nothing to 
speed things along.
    The problem was with the FBI. But then when we called the 
FBI--oh, and when he called the FBI, he was told that they only 
work on the name check cases prioritized by your agency. In 
other words, you had a situation of each agency putting the 
blame on the other agency. In this case, the individual had 
gone through and received a security clearance before applying 
for naturalization for the purpose of government employment.
    Now I am unaware of a process for that, but that is what he 
says he did. So he got his security clearance, according to 
him, but he hasn't been able to get through the FBI for the 
background check for naturalization. It would seem to me that a 
security clearance background investigation would be even more 
rigorous than a background check for naturalization purposes. 
And he believes the thing that caused his name--the reason 
there was a name check at all was because he had applied for a 
security clearance.
    And of course, he still hasn't gotten any date for a 
naturalization hearing. He hasn't been approved. And I am 
wondering if off the top of your head you have any reaction to 
the anomaly here of somebody being security cleared but can't 
get his FBI background check through for a naturalization.
    Mr. Gonzalez. Sir, I am not familiar with the process of 
granting a security clearance to someone who is not a citizen. 
But I would be happy to look into it. If your staff could get 
me the file, I would be more than happy to take a personal 
interest in it and get back to you.
    Mr. Berman. I would be grateful if you would. Thank you, 
Madam Chair.
    Ms. Lofgren. Thank you, Mr. Berman. And it appears there 
are no further Members here. So we will thank the director and 
his able staff for being here. We look forward to working 
further with you on these issues. And we will now ask the 
second panel to come forward.
    Mr. Gonzalez. Thank you, Madam Chair. And I wanted to 
reiterate our willingness to work with you and your staff on 
issues on mutual interest and how we can move these matters 
forward. I appreciate your patience today. Thanks.
    Ms. Lofgren. Thank you. All right. Let's ask the second 
panel to come forward. And as you do, I will introduce you.
    First, I am pleased to welcome Arturo Vargas, the Executive 
Director of the National Association of Latino Elected and 
Appointed Officials Education Fund. Prior to joining NALEO, 
Arturo Vargas was vice president for Community Education of 
Public Policy of the Mexican American Legal Defense and 
Education Fund, or otherwise known as MALDEF. He has been 
included in Hispanic Business Magazine's list of 100 Hispanic 
influential people twice and has been named one of the 101st 
most influential Latinos, three times three times by Latino 
Readers magazine. Arturo holds a master's degree in education 
and a bachelor's degree in history and Spanish from Stanford 
University, from my neck of the woods. And he is from Los 
Angeles, born in El Paso Texas.
    Next, I would like to introduce Fred Tsao, policy director 
for the Illinois Coalition for Immigration and Refugee Rights. 
Mr. Tsao provides technical support, training and presentations 
on immigration-related topics to service providers, immigrant 
community organizations and others who work with immigrants. 
Fred practiced law at the Rockford Office of Prairie State 
Legal Services where he worked after receiving his law degree 
from the University of Michigan. A native of Chicago, Fred is 
the son of immigrants from China and has had a life long 
concern about immigration issues.
    And it is also my pleasure next to offer Rosemary Jenks for 
Numbers USA. Ms. Jenks has worked on immigration issues since 
1990. Prior to her work with Numbers USA, she spent 2 years as 
an independent immigration consultant, providing research and 
legislative analyses to immigration reform organizations around 
the country. Before that she was Director of Policy analysis at 
the Center For Immigration Studies, a Washington, D.C.-based 
think tank. Ms. Jenks received her JD with honors from Harvard 
Law School and BA in political science from the Colorado 
College. She is a member of the Virginia State Bar. She also 
serves on the board of directors of the 9/11 families for a 
secure foundation.
    As you know, your written testimony will be made part of 
the official record. We would ask at this time that you provide 
oral testimony that consumes about 5 minutes. When the red 
light goes on, we will let you know and ask that you wrap up. 
And we will begin with you, Mr. Vargas.

   TESTIMONY OF ARTURO VARGAS, EXECUTIVE DIRECTOR, NATIONAL 
ASSOCIATION OF LATINO ELECTED AND APPOINTED OFFICIALS EDUCATION 
                              FUND

    Mr. Vargas. Thank you Chairwoman Lofgren, Members of the 
Subcommittee. It is actually great to see my birth State and my 
home State so well represented on the dais this morning.
    Thank you for the invitation to appear before you today to 
discuss naturalization delays and their impact. For the last 
decade, we have been at the forefront of efforts to promote 
U.S. citizenship and to assist legal permanent residents with 
the naturalization process. A year ago, along with our national 
partners, we launched our national Ya Es Hora !Ciudadania!, 
(It's time, citizenship!) campaign to inform, educate and 
motivate eligible permanent residents to apply for U.S. 
citizenship. And as Dr. Gonzalez testified earlier this 
morning, the agency has received about 1.4 million applications 
in 2007, nearly a doubling of applications over the previous 
year. And there are several factors that contributed to this 
increase.
    First, newcomers are strongly motivated to pursue U.S. 
citizenship because of the opportunity it confers to become 
full Americans and to participate in civic life. Our campaign 
strengthens and sustains the momentum of the increased 
naturalization applications. The USCIS's July 2007 increase in 
the fees to start the application process also contributed to a 
dramatic growth in naturalization applications. During the 
months proceeding the fee hike, the monthly number of 
applicants grew significantly. The USCIS's application backlog 
began to grow steadily as well, and applicants started to 
experience longer processing times.
    By October, the number of pending applications had 
increased by 96 percent from the year fiscal year 2006. We were 
concerned when the USCIS announced the estimate of a 16- to 18-
month processing time for applications filed after June 2007. 
According to the Agency, about half a million legal permanent 
residents submitted applications between June and October 2007, 
and the estimates are that the actual number is actually 
greater. We have seen that the demand for naturalization 
assistance has persisted even after the fee increased. When the 
USCIS announced its intention in August to require newcomers to 
replace their legal permanent residency cards with no 
expiration dates, many are choosing to naturalize as an 
alternative to replacing their permanent residency cards. We 
estimate that an additional 183,000 applicants would join the 
more than half million affected by the Agency's announced 
processing delay. This processing delay represents a 
significant increase over waiting times in recent years.
    When the Agency made the final announcement of its July fee 
increase, it reaffirmed its commitment to reducing processing 
times and cited a 5-month processing period as both a goal and 
one of the justifications for the increase. Ironically, many of 
the newcomers who will be affected by the Agency's delays are 
the very applicants who had paid the higher fees. The 
challenges to addressing the naturalization backlog is 
exacerbated by problems it experiences with the FBI background 
check process, as has been discussed by this Committee and in 
its conversation with Dr. Gonzalez.
    The USCIS has announced several actions to address the 
backlog, as Dr. Gonzalez described in his testimony. However, 
we understand that the Agency does not believe these measures 
will have an impact soon enough to ensure that most applicants 
who filed in 2007 will become citizens in 2008. We believe this 
raises serious questions about why the Agency did not start to 
take action earlier to address the impending backlog. We 
provided the Agency with advance notice about our campaign and 
the dramatic increase in applicants we thought it would help 
produce. In April 2007, when many filed their comments on the 
proposed fee hike, they expressed concerns about the increased 
applications that they expected before the implementation of 
the fee hike. We also believe that past naturalization 
increases should have forewarned the Agency about the current 
increase.
    Several times during the past two decades the Agency 
experienced consistent increases in naturalization applications 
whenever a fee increase was announced and implemented and 
whenever the Nation experienced a resurgence about the 
immigrant sentiment, much like we experienced in 2007. We 
believe the Subcommittee, the USCIS and those of us who work on 
behalf of our Nation's newcomers share the common goal of 
ensuring that all legal permanent residents who meet the 
requirements for U.S. citizenship can have their applications 
adjudicated in a timely and accurate manner.
    We thus recommend the following: The USCIS must develop and 
implement a comprehensive plan to significantly reduce future 
processing times from its current estimates. The Agency must 
ensure that all qualified applicants who filed in fiscal year 
2007 are sworn in as citizens by July 4, 2008. In implementing 
its backlog elimination plan, the USCIS must work closely with 
national and local immigration advocacy and service providers 
and private businesses that reach the newcomer community. On 
the national level, the USCIS has regular meetings with 
stakeholders on a variety of naturalization policy issues tht 
have helped the Agency develop practical solutions to some of 
its challenges and have helped the Agency gain valuable 
knowledge about the impact of its policies on the immigrant 
community.
    The USCIS must issue directives to the leadership of its 
district offices to meet regularly with local naturalization 
stakeholders. The Los Angeles USCIS district office is a model 
of an extremely effective partnership between the office's 
leadership and local organizations, and this relationship has 
actually benefited the immigrant community and the district 
office itself in carrying out its activities. The USCIS should 
work with the Department of Homeland Security to examine 
whether current policies and the acceptance of gifts by Federal 
agencies from non-Federal sources needs to be streamlined to 
enable the Agency to use the facilities and other 
infrastructure provided by State and local governments to 
assist with the backlog reductions, as the Chairwoman mentioned 
earlier.
    The USCIS and the OMB and Congress must work together to 
ensure expeditious approval of the Agency's reprogramming 
request. The USCIS will need to spend more in fiscal year 2007 
than what was initially approved by Congress to address the 
backlog. The Agency has submitted reprogramming requests to the 
Office of Management and Budget, and this has subsequently been 
forwarded to Congress. We urge Congress to approve the current 
reprogramming request as soon as possible.
    Finally, the USCIS and the FBI must institute new policies 
to eliminate the naturalization processing delays caused by the 
complicated background checks. I think this issue has been 
thoroughly discussed by the Subcommittee with Dr. Gonzalez. And 
it raises the serious question about why the FBI is not 
complying with timely background checks.
    Ms. Lofgren. Thank you very much, Mr. Vargas.
    [The prepared statement of Mr. Vargas follows:]

                  Prepared Statement of Arturo Vargas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Mr. Tsao.

TESTIMONY OF FRED TSAO, POLICY DIRECTOR, ILLINOIS COALITION FOR 
                  IMMIGRANT AND REFUGEE RIGHTS

    Mr. Tsao. Good morning, Chairwoman Lofgren, Members of the 
Subcommittee. My name is Fred Tsao. I am the policy director of 
the Illinois Coalition For Immigrant and Refugee Rights. ICIRR 
is a coalition of more than 100 member organizations throughout 
Illinois that works to build the capacity of immigrants and 
refugee communities and to advocate for policies that will move 
immigrants and refugees toward full participation in our 
society. Thank you again for this opportunity.
    I am proud to be the son of two naturalized citizens. My 
mother took her oath in February 1964, 1 month before she gave 
birth to me so I was there. My father became a citizen in 
December 1971 after 22 years in the United States, including 16 
years without legal status after barely fleeing the communist 
takeover of China. Both of my parents applied within weeks of 
becoming eligible. My parents understood the value of 
citizenship. Fortunately, more and more long-term legal 
immigrants are also realizing the importance of U.S. 
citizenship. NALEO's Ya Es Hora campaign, our own New Americans 
Initiative and other efforts across the country, have helped 
legal immigrants understand how they can improve their lives, 
find their voice and contribute further to this country by 
becoming citizens. This has been borne out by the rising 
numbers of applications filed all through 2006 and 2007.
    Obviously, immigrants also understand the cost of applying 
for citizenship. The prospect of a 70 percent rise in 
application fees drove many immigrants to file sooner rather 
than later. In January 2007 after USCIS made its intentions 
known, the Agency issued an unprecedented 95,000 naturalization 
receipts. The numbers jumped even further when the free 
proposal was actually published. Starting in March and 
continuing through July, USCIS averaged 120,000 receipts each 
month. Months after the fee increase became final on July 30, 
it was still issuing receipts for applications filed in June 
and July. The result: projected processing backlogs of 16 to 18 
months and would-be citizens who would miss this year's 
elections through no fault of their own.
    ICIRR opposed the increase as a brick in a second wall, a 
wall that would keep legal immigrants from becoming citizens. 
We warned that such a steep increase would create a surge in 
citizenship and other applications that USCIS must be prepared 
to handle and indeed could have seen coming as early as last 
January. We joined thousands of organizations and individuals 
in filing comments and worked with Congressman Gutierrez and 
Senator Obama on a Citizenship Promotion Act that would, among 
other things, would have frozen the fees. Yet the Agency 
proceeded with the increase, failed to plan well enough for it 
and got swamped.
    So where do we go from here? We endorse NALEO's goal that 
USCIS process these backlog applications by July 4 so that 
these applicants can celebrate our Nation's independence as 
U.S. citizens and vote this November. We are encouraged that 
USCIS plans to rehire 700 retirees and recruit and train more 
officers. USCIS should report to this Committee on its progress 
not just in addressing the backlog itself but also in 
implementing its staffing plans and other measures, all without 
diminishing the integrity of the process. In the spirit of 
cooperation, ICIRR is willing to work together with USCIS to 
solve this problem.
    Meanwhile, USCIS must address the 150,000 applicants whose 
cases are stuck in name check delays at the FBI. Immigrants 
with no criminal record from Russia, India and 
disproportionately the Middle East must wait years for the FBI 
to confirm that their records are clear. Congress has 
appropriated $20 million to USCIS to fix the situation, and we 
hope that USCIS and the FBI will plan wisely and spend these 
funds efficiently. Both agencies should set clear goals and 
timetables for addressing these delays and should report 
regularly to this Committee on their progress. In closing, 
ICIRR hopes that USCIS will muster the sound management and 
additional capacity it will need to give prompt careful and 
thorough consideration to all of the applicants now in its 
backlog.
    We hope that this Committee will be watching closely to see 
that USCIS keep the promise of citizenship and full 
participation that our Nation has extended to these hundreds of 
thousands of aspiring Americans. Thank you again for your 
invitation and your attention.
    [The prepared statement of Mr. Tsao follows:]

                    Prepared Statement of Fred Tsao

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Tsao. I should note for the record that we have 
submitted for the record of this hearing a letter addressed to 
Dr. Gonzalez signed by 187 organizations and individuals 
expressing concern about the backlogs and urging immediate 
action.
    Ms. Lofgren. Without objection, that letter will be made 
part of the record.
    [The information referred to is available in the Appendix.]
    Ms. Lofgren. And we will turn now to you, Ms. Jenks. 
Welcome again to our Committee room.

                 TESTIMONY OF ROSEMARY JENKS, 
           GOVERNMENT RELATIONS DIRECTOR, NUMBERS USA

    Ms. Jenks. Thank you very much Madam Chairwoman, Members of 
the Subcommittee. Thank you for the opportunity to appear 
before you to talk about how the growing delays in our 
naturalization process should be addressed and how they 
shouldn't be addressed. My organization, Numbers USA, 
represents more than half a million U.S. citizens and lawful 
permanent residents from every congressional district, every 
walk of life across the political spectrum. The one thing they 
all agree on is the value of U.S. citizenship because every 
time they send a fax or make a phone call to their 
representative from Congress, they are experiencing that value 
directly. We believe strongly that naturalization should be the 
goal of every LPR and the high point of the experience in 
America. Therefore, it has got to be done in a timely way and 
an efficient way but it cannot compromise the integrity of the 
process of citizenship nor can it compromise America's 
security.
    Almost 11 years ago, I testified before this Subcommittee 
about the integrity of the naturalization process in the 
aftermath of the Citizenship USA program, which Congressman 
King mentioned. That program is typical of the way USCIS and 
the INS before it addressed backlog reduction. They wait until 
there is a crisis. Even though, as we have heard many times 
today, the increase in numbers is almost always foreseeable. 
They wait until the crisis is upon them and then they start 
tying to react. The first thing they do is detail employees 
from one part of the Agency to another even though they may not 
be trained in how to adjudicate naturalization applications. 
Then they start hiring temporary workers. We heard that is 
already in progress. The problem is, again, the training of 
those temporary workers is not always--not usually up to par. 
When those things don't work, then the typical reaction is to 
bring in an outside consulting firm and reengineer the process. 
The results are not surprising. The result is chaos. In the 
Citizenship USA program, the results were very instructive.
    The KPMG Pete Marwick review after the fact found that of 
the 1,049,872 immigrants who were granted U.S. citizenship 
under that program, 71,557 had FBI criminal records. Of those, 
at least 10,800 had at least one felony arrest. There were 
180,000 who got no background check at all, either because 
their fingerprints were illegible and therefore returned by the 
FBI and not resubmitted, or because their fingerprints were 
never submitted in the first place. That cannot be allowed to 
happen again.
    In 1996 and 1997, when I was discovering the lengths to 
which INS officials went to meet their processing goals, my 
primary concern was the irreparable harm that was done to the 
citizenship process. Today I am still appalled at the absolute 
contempt they showed for the integrity of the process. But I am 
more horrified by the certainty that the Citizenship USA 
program gave the highest honor that America has to offer to 
terrorists and their supporters. We have proof of that. We were 
assured after that program that the process had been changed. 
There was no possibility, Commissioner Meissner testified, that 
someone could become naturalized without the FBI background 
check being done. It simply couldn't happen. Well, it has 
happened since then. It happened in 2002. There was an Office 
of Internal Audit, then INS, report on how we naturalized a 
known terrorist in 2002.
    In 1998, Congress codified a requirement that the INS--
then, now USCIS--adjudicators receive an affirmative result 
from the FBI indicating that all background checks, all 
required background checks have been completed prior to 
scheduling an interview. That means that in every one of the 
mandamus cases that have been discussed here and every single 
one of those cases since 1998, the agency broke the law. They 
broke the law and therefore they are being sued. The suits 
can't happen unless they do what they are not allowed by law to 
do and schedule the interview before they get the criminal 
check results back. But their own Federal regulations state 
unequivocally that the naturalization interview may not be 
scheduled until they have affirmative results from the FBI. And 
yet, still, we know that it is still happening.
    A March 16, 2006, USCIS internal memo includes a paragraph 
that essentially says that they continue to violate the law 
because of congressional and Presidential mandates on 
processing times and backlog reduction. So because Congress is 
pressuring them, they are breaking the law that Congress set.
    For too long, we have focused on quick fixes, a crisis 
arises and we, you know, scramble to deal with it. We have got 
to get out of that mold. We have to go back and realize that 
the basic foundation of the process is broken. It needs to be 
fixed. Without a high-tech computer system, they cannot 
accomplish the goals that we would like them to accomplish. 
Without training, they cannot accomplish the goals. Their 
personnel policies have to be taught to the employees, and they 
have to all understand that nothing can trump national 
security. And I will leave it at that. Thank you.
    The prepared statement of Ms. Jenks follows:]

                  Prepared Statement of Rosemary Jenks

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. [Presiding.] Thank you for your testimony Ms. 
Jenks.
    We now will begin our first round of questioning, and I 
will start with myself.
    Mr. Vargas, my first question is for you. You state in your 
written testimony that the most recent increase in the last 
year was the third highest in our Nation's history in terms of 
applicants. Given that fact, do you think that USCIS should 
have been able to anticipate or at least respond better to the 
increase in the applications for citizenship?
    Mr. Vargas. Thank you, Congresswoman, for that question. 
Absolutely. In fact, we ourselves saw it coming when the fee 
increase was announced; the kind of debate this Nation was 
having around the role of immigrants, we could have seen this 
coming ourselves, and that is why we met with the USCIS in Los 
Angeles and here in Washington to advise them of the impending 
increase.
    It was suggested that the increase would be isolated to 
some cities such as Los Angeles, and states such as California. 
But in fact the opposite occurred. It occurred throughout the 
country. We believe this should have been anticipated. And as 
Ms. Jenks said, now we are operating in crisis mode. This is 
not the way to adjudicate applications for citizenship.
    Ms. Sanchez. Thank you. And do you think that USCIS met and 
responded adequately with groups such as NALEO to try to figure 
out which would be the best solutions for trying to cope with 
an increase in the number of applications?
    Mr. Vargas. I think this is an example where we see some 
inconsistencies of how the USCIS works with some organizations 
such as NALEO. In Los Angeles we have an excellent working 
relationship and partnership where we were able to identify 
local challenges and come up with practical local solutions. We 
wish that this kind of partnership would be replicated 
throughout the country, including Illinois and Texas and Iowa 
and New York so that the USCIS could benefit from the 
experience of local service providers.
    Ms. Sanchez. So I am assuming that NALEO, among many of the 
other groups that helps with citizenship applications, sort of 
I would assume, would be in a good position to understand what 
some of the longest delays tend to center around and could 
provide helpful advice in terms of how USCIS could sort of 
tighten up their operations in order to address some of those 
concerns that you see over and over again.
    Mr. Vargas. That's right. And, in fact, sometimes we 
actually end up suggesting to applicants that they do exactly 
what you experience, Congresswoman, and refer to their Members 
of Congress.
    Ms. Sanchez. Thank you for that. We do receive quite a 
number of inquiries in my office as a result. Thank you.
    Mr. Tsao, did I pronounce that correctly?
    Mr. Tsao. Yes, ma'am.
    Ms. Sanchez. As you heard earlier from my questions I have 
many examples of constituents who have waited 2, 3, and even 4 
years for their naturalization process applications to be 
approved. And these people have done everything that has been 
asked of them. They have turned in all the paperwork. They are 
not missing anything. They have passed their English exams. 
They have, you know, their civic exams, and yet they are just 
waiting and waiting and waiting.
    I am interested in hearing what are some of the 
consequences that you have seen as a result of the backlog of 
immigration cases that haven't been cleared.
    Mr. Tsao. Thank you, Representative Sanchez. We in Chicago 
have seen quite a number of cases that have experienced delay. 
Many of these delays, unfortunately, have to do with the name 
checks. And these are gentlemen who have been waiting months, 
if not years, for their names to clear. These are people 
without criminal records. They have never had any trouble with 
the law, and yet they are in this situation where they have to 
keep waiting.
    Ms. Sanchez. How does that realistically impact them in 
their day-to-day lives?
    Mr. Tsao. Certainly quite a number of them would like to 
travel back to their home countries as U.S. citizens, without 
any possible obstacles of returning back to their countries. 
There are a number of situations where we have refugees and 
asylees who are elderly or disabled, who are reaching the end 
of their eligibility for SSI benefits, and they would like to 
become citizens. This is the income that supplements the 
support they get from their families and from their 
communities. And yet, because of the current 7-year bar, if 
they are not able to accomplish their citizenship within 7 
years, they will lose that support. As I understand, there is 
legislation that would address this issue pending before this 
Congress.
    Ms. Sanchez. Thank you. My last question is for all three 
of the panelists, and I am going to pose a hypothetical 
question to you. If USCIS were a corporation and Dr. Gonzalez 
were the CEO of that corporation, do you think--this is your 
personal opinion--that based on the work performance and the 
outcomes of what the agency has produced, do any of you believe 
that that corporation would still be a growing oing concern and 
in existence at this point? Mr. Vargas.
    Mr. Vargas. I think the shareholders would have some 
serious questions about the management of the agency.
    Ms. Sanchez. Thank you, Mr. Tsao.
    Mr. Tsao. I would feel the same way, yes.
    Ms. Jenks. It would have gone bankrupt years ago.
    Ms. Sanchez. Thank you. I think that is a sad commentary on 
the status of the backlog and where we are. And with that, my 
time has expired, and I will recognize the Ranking Member, Mr. 
King of Iowa.
    Mr. King. Thank you, Madam Chair. I am amazed at the 
naivety of everybody's response to that question. They have a 
monopoly. Of course, they wouldn't have gone bankrupt. That is 
one of the things we need to bring into a lot of different 
aspects of government is competition. And that makes us all 
better. That is my little point of my philosophy.
    I turn, if I could, first to Mr. Vargas. And as I read 
through your testimony and consider that presentation, you 
talk--you write in your testimony that USCIS must take swift 
and effective action to ensure that all the applicants can 
realize their dream of U.S. citizenship, and a recommendation 
was by July 4th of 2008.
    What would be the highest priority of USCIS's job? Is that 
it as you define it?
    Mr. Vargas. I think the highest priority is to provide a 
quality service for a reasonable price. And when they testified 
before this Committee last year, when we discussed the fee 
increase, that was exactly the point that I was making; that if 
you are going to ask more financially of these applicants in 
addition to everything that an applicant does, learn English, 
follow the rules, take the test, demonstrate their loyalty and 
faithfulness to this country, that they should receive a 
reasonable service.
    The July 4th is just a goal, sir.
    Mr. King. I understand that. But could you incorporate into 
that philosophy the level that you put on our national security 
and on the background check side of this? That seems to be 
absent from your testimony.
    Mr. Vargas. I don't think national security should be 
compromised in any way. We also believe, though, that we could 
achieve these goals simultaneously of ensuring our security, 
ensuring integrity in the process, and also making sure that 
applicants seeking citizenship are treated fairly.
    Mr. King. Fair enough. And as I go to your point about the 
FBI and the 90-day deadline, what would you recommend would be 
the result at the end of 90 days if the FBI doesn't complete 
the background check?
    Mr. Vargas. I think that is an excellent question for the 
FBI when it is called to appear before this Committee.
    Mr. King. You wouldn't make a recommendation as to what 
that consequence might be? There wouldn't be an implication in 
your testimony that the process should go forward, that the 
application should go forward.
    Mr. Vargas. I think there should be a report from the FBI, 
either to the applicant or to this Committee, as to why a 90-
day check cannot be achieved.
    Mr. King. We are in agreement all the way down through this 
testimony, through your response to my questions I should say, 
up to and including that our national security shouldn't be 
compromised, but we need to find ways to make government 
efficient. And I agree with the substance of that testimony.
    And I would turn to Ms. Jenks and your testimony. It seemed 
that you had more to say when that clock ran out.
    Ms. Jenks. Always.
    Mr. King. I do know that. I would ask you about the 
political dynamic that brought about Citizenship USA, and if 
you might draw some comparisons between that time and this time 
now in 2008.
    Ms. Jenks. There are quite a number of comparisons, which 
worries me. Of course, Citizenship USA was created because 
there was a huge backlog due to the fact--well, several 
factors, but one of them, the biggest, being that the aliens 
who were given amnesty under the 1986 act had just become 
eligible for naturalization and had applied, rightly so, in 
large numbers.
    There was also welfare reform and green card replacement 
programs going on. That all drove more immigrants to apply. 
This was entirely foreseeable and yet still the INS waited 
until they were in a crisis and they had a massive backlog, and 
then they started detailing employees from one part of the 
agency to another, which we heard this morning is already 
happening at USCIS. And then they started hiring temporary 
workers, which we heard this morning has already started 
happening at USCIS. And then, when none of that worked, and 
there was still a lot of pressure from Congress, from the 
applicants and from the White House, because an election was 
pending, then they brought in an outside consulting firm that 
reengineered the process. And the shortcuts that always seem to 
be taken when any of these processes is reengineered is the 
security part of it because that is what takes the longest. 
Inevitably it is the security checks that take the longest.
    Mr. King. Also has USCIS, have they gained more security 
clearance and more investigators or have they lost them in the 
last couple of years, to your knowledge?
    Ms. Jenks. They have lost them. I don't know that they 
have--they may still have two actually law enforcement 
authorized people there. I think that is it.
    Mr. King. The dependency is on the FBI and their level----
    Ms. Jenks. Absolutely.
    Mr. King. I make a point here, Ms. Jenks. If there were 10 
million people who want to come into the United States and we 
let 1 million people in a year, the average wait would be 
roughly 10 years. And we get concerned about lines, but the 
truth is that we have more applicants than we actually have 
slots for, and that is part of this equation; would you agree?
    Ms. Jenks. Absolutely. And that is not going to change 
unless Congress changes the overall immigration law. The fact 
is that this is an agency that is going to face crisis after 
crisis after crisis after crisis if we are going to deal with 
it in that way.
    So until Congress steps in and exercises a firm oversight 
authority and essentially forces them to step back and fix the 
underlying system, get the IT system up--how long have we all 
been hearing that they are going to become a digitized agency? 
And today we heard, well, in the next 5 years we are supposed 
to go--move out of using paper. Well, we have heard it over and 
over again. When is it going to happen? It has to happen. You 
cannot build a strong building on a weak foundation. It won't 
work.
    Mr. King. But completing interviews prior to a background 
check would be a waste of human resources that could be better 
used, and I conclude that as a message to be given to this 
panel as well.
    And I thank you and all the witnesses for their testimony. 
Thank you. I yield back.
    Ms. Lofgren. Thank you. The gentleman yields back.
    I would just like to close with a couple of comments rather 
than questions. First, I think it is important that we not 
pose, really, the false question of either we have to have 
insecurity or inefficiency, because you can have both security 
and efficiency; and that is, I think, what we are all striving 
for here today.
    Secondly, there is no quota on how many people who are 
eligible to apply for citizenship get to be become Americans. 
It is only all the people who are eligible and who want to be 
Americans get to do that. So I think that it is important to 
state that. And we benefit from that, we all agree on that.
    Thirdly, you know, with 5,000 lawsuits being filed--and I 
think all the Members here probably have run into it, where 
people are tearing their hair out; it is 2, 3, 5 years and you 
can't get a yes or no. I mean, you cannot get a yes or no.
    And finally a lot of things are at stake here: whether you 
can apply for your spouse, whether you can take the job you 
have been offered at a defense firm. Many things. And so if we 
can't get this under control, more lawsuits are going to be 
filed, more agency resources are going to be directed toward 
dealing with that, and it is a spiral downward. So we have to 
get this done.
    We had a workshop on information technology last fall, and 
I was the only Member who was able to come, regrettably, but I 
think we might actually do a hearing on that, because I think 
there is total agreement wherever you are on the philosophical 
issues of immigration, we have to have an adequate system here. 
And we don't. And that is really also the problem with the FBI, 
that they are still creating paper files in 2008, it is just 
unbelievable. It is unbelievable. And it is not secure.
    If you have to chase down files on agents' desks all across 
the country, I mean, it is a problem for applicants for 
naturalization. It is a disaster for managing caseloads in 
terms of protecting us from people who want to do us harm. So 
we really have to move into the modern age.
    And I am hopeful that one of the things we can work 
together on as a Committee--even we don't agree on everything 
having to do with immigration--is to work together on a 
bipartisan basis on efficiency and getting these systems to 
work and having an agency that we can be proud of.
    So a lot of people don't realize that the witnesses are 
volunteers here today. We do thank you for coming to share your 
expertise for all you have done not only today but for our 
country.
    And at this point, we would invite Members to submit 
additional written questions. We have 5 legislative days to do 
that, and we will forward the questions to all the witnesses. 
And if we do have questions, we would ask that you answer them 
promptly. And for the record, the record will remain open for 5 
legislative days. And we thank you again and this hearing is 
adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
